<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
         ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION

                                ________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                    RON PACKARD, California, Chairman
 HAROLD ROGERS, Kentucky               PETER J. VISCLOSKY, Indiana
 JOE KNOLLENBERG, Michigan             CHET EDWARDS, Texas
 MICHAEL P. FORBES, New York           ED PASTOR, Arizona
 RODNEY P. FRELINGHUYSEN, New Jersey   JAMES E. CLYBURN, South Carolina
 SONNY CALLAHAN, Alabama
 TOM LATHAM, Iowa                   

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       James D. Ogsbury, Jeanne L. Wilson, and Donald M. McKinnon,
                            Staff Assistants

                                ________

                                 PART 6
                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management and Commercial Waste Management.........    1
 Nuclear Waste Technical Review Board.............................  214
 Atomic Energy Defense Activities.................................  241
 Defense Nuclear Facilities Safety Board..........................  672

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-261                     WASHINGTON : 1999




                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                       DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                  JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois             NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                  MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                    JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                  STENY H. HOYER, Maryland
 TOM DeLAY, Texas                         ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                       MARCY KAPTUR, Ohio
 RON PACKARD, California                  NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                  PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York                 NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina        JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                    ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma          JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                     JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan                ED PASTOR, Arizona
 DAN MILLER, Florida                      CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                     DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                   CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey      ROBERT E. ``BUD'' CRAMER, Jr., 
 ROGER F. WICKER, Mississippi               Alabama
 MICHAEL P. FORBES, New York              JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,               MAURICE D. HINCHEY, New York
Washington                                LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,               SAM FARR, California
California                                JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                      CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                     ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2000

                              ----------                              

                                           Tuesday, March 16, 1999.

                          DEPARTMENT OF ENERGY

                               WITNESSES

JAMES W. OWENDOFF, ACTING ASSISTANT SECRETARY, OFFICE OF ENVIRONMENTAL 
    MANAGEMENT
LAKE H. BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT

                            Opening Remarks

    Mr. Packard. I am going to call this hearing to order this 
morning, and I appreciate my two Democratic colleagues 
arriving, and I appreciate very much our two witnesses, Mr. 
Barrett and Mr. Owendoff.
    We have, at least I have, read the testimony. I presume 
that the others have had the opportunity to do so, and it is 
very interesting. I appreciate very much what you have 
presented to us. It is extensive, and I would prefer that you 
not read the testimony as you have submitted it. If you can 
summarize and give us some additional time for questioning and 
answers, it would be appreciated.
    But we are going to get right into your testimony. And we 
will hear from--Mr. Owendoff, we will have you first. Mr. 
Owendoff is the Acting Assistant Secretary of the Office of 
Environmental Management, and this is obviously of great 
importance to this subcommittee. We appreciate the work you do. 
If you would like to proceed, we will now hear from you.

                  Oral Statement of James M. Owendoff

    Mr. Owendoff. Thank you, Mr. Chairman. Mr. Chairman, and 
members of the committee, thank you for this opportunity to 
appear before you to discuss the Department of Energy's 
Environmental Management Program and our fiscal year 2000 
budget request. I would like to cover several subjects in my 
brief oral statement. First, I will mention some of the 
significant progress we have made, as well as some of the 
challenges we face. Second, I will describe our budget request 
for fiscal year 2000.
    As you know, the Environmental Management Program is 
responsible for managing and cleaning up the environmental 
legacy left from over 50 years of production of nuclear weapons 
and government nuclear energy projects. Cleaning up 
environmental contamination is just one part of our program. In 
addition, we are responsible for the safety and security of 
more than 25 metric tons of weapons-usable plutonium, over 
2,000 tons of intensely radioactive spent nuclear fuel, and for 
storing, treating and disposing of millions of cubic meters of 
radioactive waste.
    Clearly, this is a big job. To bring some closure to this 
program, we have set a goal of cleaning up as many sites as 
possible by the end of 2006. We documented how we plan to get 
there in the ``Accelerated Cleanup, Paths To Closure'' report 
issued last summer. We expect to issue an updated version later 
this year. By closing sites early, we reduce the hazards facing 
the public and our workers, concentrate our resources on 
cleaning up sites rather than the overhead costs necessary to 
keep a site open, and thereby lower the long-term cost to the 
taxpayers.
    We have set very ambitious goals for closing, by the end of 
2006, the Rocky Flats site in Colorado and the Mound and 
Fernald sites in Ohio. By 2002 we plan to complete cleanup at 
the Weldon Spring site in Missouri. And we will clean up and 
will complete cleanup of all of our sites in California by 
2006.
    Our plans for closing sites like Rocky Flats and Fernald 
assume a stable funding stream, but stable funding is not 
enough. Our ability to reach these goals will also require 
creative use of the facilities and technical personnel at other 
sites. A cooperative strategy of integration across the complex 
is imperative. Such a strategy requires dedicated efforts by 
DOE, contractors, regulators, Native Americans, local 
governments and other stakeholders to succeed.


     recent accomplishments of the environmental management program


    We are making progress towards our goal, as evidenced by 
some of the recent accomplishments. When we came before you at 
this time last year, we had 53 sites requiring active cleanup. 
During this past year we have reduced that number to 48, and we 
plan to complete cleanup at six more sites by the end of fiscal 
year 2000. With the completion of the last two sites last year, 
we completed service cleanup at all 22 uranium mill tailings 
sites as well as more than 5,300 contaminated properties in the 
vicinity of those sites.
    We have made real progress in reducing risk and mortgages 
at our large sites where cleanup will continue past 2006. For 
example, in fiscal year 1998, we completed deactivation of the 
N-Reactor complex, the last of nine reactors at the Hanford 
site; and the B-Plant, a plutonium processingfacility at 
Hanford. In both cases we reduced annual surveillance and maintenance 
costs from about $20 million to less than $1 million.
    At Brookhaven, New York, we finished connecting community 
drinking water hookups around the Brookhaven National 
Laboratory to ensure that the residents' drinking water supply 
remains unaffected during the long-term groundwater cleanup.
    Our past investments in technology development are now 
making significant demonstrable contributions. In the past year 
alone, we have demonstrated 40 technologies to reduce risk and/
or costs of cleanup projects, and our sites used new 
technologies in 108 instances.

   office of environmental management fiscal year 2000 budget request

    Finally, turning to our fiscal year 2000 request, we are 
requesting $5.7 billion in traditional budget authority, $100 
million more than was appropriated for the current fiscal year. 
In addition, we are requesting $228 million in budget authority 
to support privatization projects. This budget will support 
accelerated cleanup and closure, the deployment of new 
technologies, and progress in treating and disposing of nuclear 
wastes.
    It also reflects our expectation that we will begin 
shipments of nonmixed transuranic waste to the Waste Isolation 
Pilot Plant, providing that pending litigation is resolved 
favorably. We are also continuing to work to obtain a permit 
from the State of New Mexico so we can ship mixed transuranic 
waste to the facility.
    The request also supports closure at Rocky Flats. We have 
developed a baseline defining the critical path for closing in 
2010, and we have identified opportunities to accelerate 
closure towards achieving the goal of closing by the end of 
2006.
    In the fiscal year 2000 request we give priority to our 
high-risk problems, such as stabilizing and ensuring the 
security of plutonium, stabilizing high-level waste tanks, and 
ensuring the safe storage of spent nuclear fuel, including the 
foreign research reactor spent fuel with highly enriched 
uranium that we are bringing back to the United States to 
reduce worldwide nuclear proliferation risks.

              planned accomplishments for fiscal year 2000

    We intend to meet our statutory and regulatory requirements 
as well as our obligations under compliance agreements with 
State and Federal agencies. We will continue to ensure that our 
cleanup projects are well-managed and use the taxpayers' 
dollars efficiently. All of our cleanup work is organized into 
projects. Some of these projects are for safe operations of 
facilities, but most have an endpoint and a map to get there.
    In accordance with the Government Performance and Results 
Act, we are measuring and tracking our performance in these 
projects against the defined set of performance measures, and 
we expect to be held accountable for our performance against 
these measures. You can see these projects and the associated 
performance measures in our budget request, which is organized 
based on the projects as requested by this committee in last 
year's appropriations bill.
    We are also taking a number of actions to improve our 
project management performance. We are conducting external, 
independent project assessments as requested by this committee, 
and enhancing our Federal staff capability to independently 
review our projects. We continue to improve our contracting 
methods, to provide our contractors with the right incentives 
and penalties for good and/or poor performance.
    In conclusion, our fiscal year 2000 request will enable us 
to reduce our urgent risks, meet legal obligations, and 
continue to work towards our goal of completing as much cleanup 
as possible by 2006. We would like to continue to work 
cooperatively with the Congress to meet these goals.
    I also want to thank the committee for its approval of the 
$53 million reprogramming request that we had submitted for the 
operation of the high-level waste tanks at Hanford. I want to 
apologize for the untimely submission of the request. It was in 
no way intended to preclude the appropriate review by the 
Congress of that request.
    As we indicated to the committee staff, we are finalizing a 
reprogramming request at the Savannah River site in South 
Carolina and expect to submit that request in the next several 
weeks.
    Thank you, and I would be pleased to answer any questions 
you have, Mr. Chairman.
    [The statement of Mr. Owendoff follows:]


[The official Commmittee record contains additional material here].


                   Oral Statement of Lake H. Barrett

    Mr. Packard. Thank you very much, Mr. Secretary.
    We are very pleased now to have Mr. Lake Barrett, the 
acting director of the Office of Civilian Radioactive Waste 
Management, as our next witness, and we will now hear from you.

 office of civilian radioactive waste management fy 2000 budget request

    Mr. Barrett. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to present our fiscal 
year 2000 budget request to you. With your permission, I would 
like to submit the full statement to the record.
    Mr. Packard. Of course.

                  progress at the yucca mountain site

    Mr. Barrett. The Civilian Radioactive Waste Management 
Program has made significant progress. Since I last appeared 
before you, the Department has completed the Viability 
Assessment of the Yucca Mountain site. The viability assessment 
found that there were no ``show stoppers'' and that our work 
should proceed.
    This administration continues to move forward with the 
scientific characterization of the Yucca Mountain site, 
progressing towards a national decision whether the site is 
suitable for a geologic repository. We are now nearing the 
conclusion of our site characterization effort. The President's 
fiscal year 2000 budget request supports the viability 
assessment findings.
    It is important to note that we still have work to do.The 
budget request, building on the scope of work identified in the 
viability assessment, spells out what we plan to do in the fiscal year 
2000 time period to support a decision in the coming years. The overall 
schedule is depicted on the chart before you.
    [The chart follows:]

[The official Commmittee record contains additional material here.]




                            site suitability

    We are on target to decide in 2001 whether Yucca Mountain 
is suitable to be the location of a repository, and then to 
submit a License Application to the Nuclear Regulatory 
Commission in 2002, if the site is found suitable. Meeting 
those milestones will maintain the schedule for the start of 
waste emplacement in 2010, if the site is suitable.
    Your continued support for this program is essential. This 
program is essential for our national policy for the management 
of commercial spent reactor fuel, the cleanup of our defense 
nuclear facilities that Jim Owendoff has just described to you, 
the disposition of our naval nuclear spent fuel, and the 
disposition of surplus plutonium to support our Nation's 
nonproliferation goals in this post-Cold War period.

               fiscal year 1998 and 1999 accomplishments

    Before I discuss the fiscal year 2000 budget request, I 
would like to give you a brief summary of our accomplishments 
in fiscal year 1998 and our ongoing fiscal year 1999 work. We 
are focused on the work products, as you see on this chart, 
that support the remaining key decisions. They are the Draft 
Environmental Impact Statement this summer, 1999; the Final 
Environmental Impact Statement, in 2000; a determination 
whether the site is suitable for recommendation to the 
President, in 2001; and the License Application, if the site is 
suitable, in 2002.
    Last year, as I noted, we completed and submitted the 
Viability Assessment to the President, the Congress and this 
committee. That assessment served to identify the critical 
issues that must be addressed before a decision may be made by 
the Secretary on whether to recommend the Yucca Mountain site 
for development as a repository to the President.
    Our fiscal year 2000 budget request implements the work 
plan to address those issues which will allow a national 
decision. At Yucca Mountain, we are working to understand the 
key scientific issues, including the flow of water through the 
repository, the effect of heat from waste packages on the 
geology and on the hydrology. We are investigating design 
alternatives that could enhance the performance of the 
repository system in the mountain.
    Our understanding of these issues will help reduce the 
uncertainties related to the performance of a repository over 
thousands of years into the future. We are utilizing our 
resources more efficiently and are placing our staff and 
contractor resources where the requirements are greatest. We 
have, for example, since fiscal year 1992 reduced our staff at 
headquarters by 50 percent and increased it in Nevada by 40 
percent over that period.
    We have also responded to congressional direction with 
respect to management and administrative support service 
contractors, and have further reduced the funding for them by 
over 10 percent this year.

                    fiscal year 2000 budget request

    Now, I would like to turn to our fiscal year 2000 budget 
request. We are requesting $370 million in new budget authority 
and the release of $39 million from funds appropriated in 
fiscal year 1996 in the Defense Nuclear Waste Disposal 
appropriation, for a total funding level of $409 million. We 
have proposed to allocate $332 million to the scientific and 
engineering work at the Yucca Mountain Site Characterization 
Office; $6 million for waste acceptance, storage and 
transportation; and $71 million for program management, which 
includes our Nuclear Quality Assurance, Regulatory functions, 
and our National Environmental Policy Act responsibilities.
    The $332 million at Yucca Mountain will be used to continue 
the necessary cutting-edge scientific and engineering work to 
complete the characterization of the Yucca Mountain site; to 
reduce the remaining uncertainties about the site's performance 
by further developing models that predict geophysical and 
engineering performance over thousands of years; to further 
refine our repository and waste package design; to assist in 
the assessment of the repository safety strategy and total 
system performance by updating our Total System Performance 
Assessment using the refined site models that I described 
before; and to prepare the Final Environmental Impact Statement 
for a repository at Yucca Mountain.
    In addition to the hard science, engineering and technical 
activities underway at Yucca Mountain, we believe that the 
financial support envisioned by the Nuclear Waste Policy Act to 
the State of Nevada and the affected units of local government 
are important in enabling the citizens and the governments 
directly adjacent to the Yucca Mountain project to remain 
informed and to participate in a meaningful way in the day-to-
day program activities that may affect them. To that end, we 
seek your approval of our request for this funding.
    The budget request for waste acceptance storage and 
transportation is $6 million. This request will support the 
continuing long-lead work that must proceed transporting spent 
fuel to any Federal facility, and continuing interactions with 
the standard contract holders to discuss how to best 
accommodate the delay in acceptance of spent fuel from the 
commercial utilities.
    In the program management area, the $71 million requested 
will support nuclear quality assurance, regulatory compliance, 
program control and management activities. Thefunding requested 
provides core support for the Nuclear Regulatory Commission-mandated 
nuclear quality assurance activities; the National Environmental Policy 
Act-mandated environmental impact statement development; contingency 
planning; program management and control activities; Federal salaries; 
information technology; and our very extensive records management 
systems.

                               conclusion

    As I noted in my opening remarks, we have made substantial 
progress, and we are appropriately positioned to finish the 
site characterization effort effectively with the fiscal year 
2000 budget. The viability assessment found that there were no 
``show stoppers'' with respect to the Yucca Mountain site. It 
also identified the necessary remaining scientific and 
technical work that we have to complete; if provided the 
funding that is reflected in our fiscal year 2000 budget 
request.
    Funding at our request level will give us the resources 
required to address the last remaining questions about the 
suitability of the Yucca Mountain site. We are committed to 
determining the suitability of the site, and we seek your 
support in our efforts to move forward on this critical 
decision of national importance.
    Thank you, and I would be pleased to answer any questions 
that the committee may have.
    [The statement of Mr. Barrett follows:]

[The official Commmittee record contains additional material here.]



            fiscal year 2000 budget request for rocky flats

    Mr. Packard. Thank you, Mr. Barrett. We appreciate both 
your testimonies here, your brevity and your thoroughness.
    I am going to turn to Mr. Visclosky first for questions, 
and then I will take other members, and my questions I will 
withhold till later.

                    closure of the rocky flats site

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your participation today 
and for your activities.
    Mr. Owendoff, as far as Rocky Flats, you have a request for 
the year 2000 of $657 million. Is that your capability at Rocky 
Flats?
    Mr. Owendoff. You mean can we spend more money?
    Mr. Visclosky. Effectively spend more money, yes, sir.
    Mr. Owendoff. Certainly I would say that any site will tell 
you that they can effectively spend more money and that we 
could complete the cleanup faster. The challenge, as we all 
know, is how to balance the competing requirements, and at 
Rocky Flats we believe that we are on the path to be able to 
complete the job by 2006.
    Now the contractor, I know, has been around suggesting that 
more money would lower the risk and the uncertainty to get to 
closure, but we believe that there is an effective balance. We 
also believe that it is appropriate to have it so that you are 
working on, as we say it, on the margin of a lean budget so 
that nobody gets a little bit complacent or fat in how we are 
proceeding. So we believe that we have requested the right 
amount of money.
    Mr. Visclosky. For 2006 with that budget request?
    Mr. Owendoff. That is correct.

                             status of wipp

    Mr. Visclosky. Okay. What is the current status of the WIPP 
facility?
    Mr. Owendoff. The facility itself, as the Secretary has 
indicated, is ready for operations. Right now we have pending 
litigation with the district court and with Judge Penn for 
lifting an injunction on moving waste to the facility. Judge 
Penn has indicated that he will rule by March 23rd, on whether 
that injunction should be lifted or not. We are ready to make 
shipments from the Los Alamos facility, and we have agreement 
with the New Mexico environmental department that those wastes 
are nonmixed.
    The State is working on a RCRA permit for a mixed waste 
permit so that we could take mixed waste to the facility. They 
expect to complete that permit process and have a permit for us 
in October of this year.
    Mr. Visclosky. October of this year. So you are ready to 
go--
    Mr. Owendoff. That is correct.
    Mr. Visclosky (continuing). Pending the litigation, you 
would be prepared to accept wastes by October?
    Mr. Owendoff. We are prepared now to ship nonmixed waste. 
Sorry about the difference in waste types. But we have, 
transuranic wastes that are strictly radioactive, or are 
nonmixed. The mixed part comes if you have solvents or volatile 
organics that are in the wastes. That is what then triggers the 
requirement for a RCRA permit, when you have hazardous 
constituents in addition to radioactive wastes.
    But today we have nonmixed wastes that would not require a 
RCRA permit that we are ready to ship to WIPP. If Judge Penn 
lifts the injunction, we would be prepared at the end of this 
month to begin nonmixed shipments to WIPP.

                shipments of tru waste from rocky flats

    Mr. Visclosky. When would it have to start accepting 
shipments from Rocky Flats so that you would be able to meet 
your 2006 deadline?
    Mr. Owendoff. We believe that by the end of this year we 
need to start shipments at Rocky Flats. Right now, certainly it 
would be better for us if we were able to ship today from 
Rocky, but working around this is not causing us a major 
problem; however, the regulators in Colorado have indicated 
that sometime this fall, if we do not have WIPP opened, they 
want to know what our plan is for providing additional 
facilities for this storage of the tru waste.
    As you can appreciate, we are continuing to stabilize the 
materials that will go to WIPP. So we are stabilizing 
andpulling them out of the buildings so we can stabilize them, getting 
them ready for WIPP. Then we have to do something with that waste once 
it is stabilized. And so we are backing up somewhat at Rocky, and the 
end of this year is the time when it would be begin to impact the 2006 
date.

                    storage of waste at rocky flats

    Mr. Visclosky. The calendar year would obviously interpose 
with the next fiscal year, and in your testimony you talk about 
the possibility of developing alternative options, but there is 
no money in your budget request to do so.
    Mr. Owendoff. That is correct.
    Mr. Visclosky. Would you explain that to the subcommittee, 
and would there be a reprogramming request potentially 
involved?
    Mr. Owendoff. We are now looking at options with the State 
and with the community, several options, some of which would 
utilize existing facilities that are there and put the material 
in there. As far as new construction, the question is whether, 
would we use fabricated facilities or use steel Butler 
buildings.
    Mr. Visclosky. Steel would be preferable.
    Mr. Owendoff. Yes, sir, I understand. But we believe right 
now that the costs, especially if we go into new construction, 
substantial new construction, we would have to come to the 
committee for reprogramming action. If we put it into an 
existing facility, then we may not have that significant an 
investment.
    But on the other hand, if we use an existing facility, then 
we would not be able to bring that facility down and 
decontaminate it and decommission it. So that is what we are 
trying to balance as we look at the costs. This Fall is key to 
us.
    Mr. Visclosky. Okay, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Packard. Thank you, Mr. Visclosky.
    Mr. Knollenberg.

                         defense closure sites

    Mr. Knollenberg. Mr. Chairman, thank you very much, and 
welcome this morning, Mr. Owendoff, and Mr. Barrett, good to 
see you again.
    The first issue I want to discuss with you, Mr. Owendoff, 
would be the defense facilities closure projects. Of course, 
you mentioned that in your commentary, and these projects are 
all within the EM account.
    Like you, I am interested in getting the Rocky Flats and 
Fernald and Mound sites cleaned up, and from your testimony it 
appears you feel that we are on target to do that. Obviously by 
closing these sites we are going to, I think, remove the 
environmental and the health risks to both the workers and the 
communities, and the sooner we can get that done, obviously the 
better. Additionally, by accelerating closure on these sites, 
we end up spending less money, as you know, in the long run, 
and we also free up some dollars for the other sites, namely 
Hanford, Savannah River, Oak Ridge, of course, and Idaho.
    When Secretary Richardson was in here earlier this month, 
he testified to this committee that he was optimistic that 
Rocky Flats, Fernald and Mound could be closed by 2006. And 
when I asked about the need for increased funding to see it 
occur, he repeatedly stated that we don't need any more money; 
that we shouldn't send any more money to the contractors.
    Do you agree with the Secretary that we are on target to 
close these sites by the year 2006?
    Mr. Owendoff. Yes, Congressman Knollenberg, I believe that 
we are. I want to point to just a couple of examples that at 
least give me the confidence that we are going to make it. As I 
mentioned in my remarks, we just completed the last of the 22 
sites for the uranium mill tailings project, a $1.5 billion 
project. It has taken us a number of years but, those sites 
were at the front end of the nuclear process. I think that 
represents a real step, that we have completed those sites.
    If we look at Weldon Spring, I think you can see that we 
are closing that site. All of the facilities are down. It is 
about a 5/16 the size of Fernald. If you look at the site, we 
have successfully brought, all the buildings down. We are just 
finishing up the disposal cell.
    At Mound, we have completed an agreement with the city for 
the effective transfer to the community for reuse. We believe 
that transferring the facilities is an important step, having 
someone at the other end that is keeping pressure on us, 
wanting the reuse of those facilities for other economic 
purposes.
    And we are doing the same thing at the Grand Junction site 
out in Colorado. Again, we will be entering into an agreement 
with the folks for the ultimate use of those facilities.
    I believe that these sites demonstrate our success at the 
front end of the nuclear process. I am not saying to you, you 
just have to wait until all of a sudden we do everything all at 
once, I think you can see that we have demonstrated we are able 
to get these sites done.
    In reference to certainly your and Congressman Visclosky's 
request, if we had more money, it would increase the confidence 
that we can get there, but I don't believe that we----

                       funding for closure sites

    Mr. Knollenberg. You believe we are at an optimum level of 
funding?
    Mr. Owendoff. I believe we are at an optimum level, 
considering all the balancing that we have to do.
    Mr. Knollenberg. The reason I bring this up, contractors 
have mentioned to me and my staff that the reason that they are 
concerned about the funding levels is because DOE is either 
adding more to what needs to be done or is not including costs 
caused by other site shortfalls.
    I will give you an example. You know some of the sites will 
have to build new temporary storage facilities for the TRU 
waste while they wait for WIPP to open; however, there is no, 
as I understand it, no additional funding for these unexpected 
facilities.
    And I just call your attention to something that caught my 
eye. That was, nuclear waste stored under tents is taking place 
now, and steel drums of nuclear waste will be stored in tents 
at the former Rocky Flats nuclear plant. They are just tents. I 
mean, they are in drums presumably, but they are stored out in 
the open. Tents are not what I would consider to be, you know, 
a very durable way of protecting the environment.
    I know there has to be site integration. And WIPP, you 
talked about that briefly, you can't move the checker until 
there is something open over here.
    Mr. Owendoff. That is right.
    Mr. Knollenberg. How is DOE responding to unexpected costs, 
costs like these to make sure that those 2006 closures are on 
schedule?
    Mr. Owendoff. Congressman Knollenberg, my disappointment 
with the contractor when they presented those figures to your 
staff was they didn't also present how we have been making 
great strides in reducing costs. There is some $50 to $70 
million of costs----
    Mr. Knollenberg. Coming out of where, could you tell me?
    Mr. Owendoff. Like accelerating the shipments of material 
to Savannah River, getting shipments of materials to Oak Ridge, 
to Pantex, shipments of materials to Los Alamos. There is 
certainly a plus and a minus of things that we can accelerate, 
that was a reason we are striving for this man-on-the-moon 
goal. But let me say as far as the buildings for interim 
storage because of the delay at WIPP, if necessary, a tent is 
not like what my son is living in in Saudi, you know, over 
there in the Air Force. That is not quite the same tent. These 
are either concrete or paved floor with fabric material that is 
over the top of them, much as what you see around as temporary 
facilities.
    Mr. Knollenberg. It is really a situation, it is just a 
holding situation?
    Mr. Owendoff. That is correct.
    Mr. Knollenberg. It wasn't designed. In fact that step 
wasn't even designed, was it, originally? It was designed 
originally to go directly to the WIPP facility.
    Mr. Owendoff. Yes.

                      funding for tanks at hanford

    Mr. Knollenberg. Let me just ask you, and I will just close 
down with this question this round, it is my understanding 
that--and I do appreciate that response--it is my understanding 
that DOE has entered into a contract for the design and 
construction of a vitrification facility at Hanford. This is to 
immobilize the roughly, I guess it is 20 percent of the 
radioactive wastes stored in their underground tanks. And by 
the way, they have got a bunch of those, as you well know. This 
is just 20 percent.
    My understanding is they have, what is it, 177 or so of 
those million gallon tanks?
    Mr. Owendoff. Yes.
    Mr. Knollenberg. Current cost of this project is targeted 
at close to $7 billion, $6.9 billion. DOE has requested $106 
million for fiscal year 2000 for the TWRS privatization 
project. In addition, they requested $2.4 million--I beg your 
pardon, $2.4 billion--in advance appropriations in the fiscal 
year 2001-2004 period to cover the scheduled project outlay 
rate. That is roughly $600 million a year.
    That is equivalent to what we are doing for the Rocky Flats 
project, and I know all the members of the committee are 
concerned about these million gallon tanks at Hanford and the 
need to bring this radioactive waste under control. But this 
committee has historically not, as far as I know, done any 
advanced appropriations for DOE projects.
    I guess the question is, when you go from $100 million to 
$600 million, and in lieu of advanced appropriations, how would 
you suggest we find that type of money within the relatively 
stable DOE budget? Where is it going to come from?
    Mr. Owendoff. I understand. Congressman Knollenberg, the 
requests that we have made for advanced appropriations, these 
funds would not outlay in the next 4 years. These are funds 
that would be held in reserve. So if we have to terminate the 
contractor for some reason, there is a requirement that we have 
within the Federal Government monies that match what the 
contractor is spending.
    The reason we are asking for these funds to be able to put 
into reserve is that we are in a critical stage over the next 2 
years of obtaining the financing for this project. Again, we 
believe it is important to have the contractor finance a piece 
of the project. But I want to say that within the next 2 years, 
we will also have a report that will come back to this 
committee that will lay out a number of alternatives, including 
what the appropriate funding mechanism is. But each of those 
mechanisms will still require some amount of backing.
    The problem that we see is, the financial communities are 
concerned about our history in the Federal Government of 
backing projects and continuing with projects. So their concern 
is, will they be able to recoup their investment as well as 
make their profit on top of it? And if we appear to be a 
``Nervous Nellie'' over this project and really not 
supportive--in the past 3 years there has only been approval 
for a portion of the our request--that confidence is not high, 
and it will affect the financing rate the contractor can 
obtain.
    Mr. Knollenberg. My concern is, it is still budget 
authority.
    Mr. Owendoff. That is correct.
    Mr. Knollenberg. It is not----
    Mr. Owendoff. It is not outlays.
    Mr. Knollenberg. It is not budget outlays. But we have to 
do something to bring that about. I am just concerned about 
getting to that level. But----
    Mr. Owendoff. I understand.
    Mr. Knollenberg [continuing]. I will conclude with that in 
this round, and I thank you, Mr. Owendoff.
    Mr. Chairman, thank you.
    Mr. Packard. Thank you. There are students here from Close 
Up. We welcome you.
    And we will now move to Mr. Edwards.

                              hanford site

    Mr. Edwards. Thank you, Mr. Chairman. Thank you both for 
your testimony. Could I ask, Mr. Owendoff, do you know how much 
we have already spent in Hanford and how much do we expect to 
spend at Hanford, and when will that be ultimately finished?
    Mr. Owendoff. I don't have the amount of monies at hand, 
but let me----
    Mr. Edwards. Ball park. How about ball park?
    Mr. Owendoff. Ball park, $1 billion a year. It can go up 
some, but $1 billion a year over the next 30 years.
    Mr. Edwards. All right. In addition to what has already 
been spent?
    Mr. Owendoff. That is correct, Congressman.
    Mr. Edwards. Okay. Does speeding up that expenditure help 
at all in saving money in the long run or not?
    Mr. Owendoff. Just like with Rocky Flats, whenever we can 
accelerate and reduce the overhead, the infrastructure costs, 
then, yes, it does reduce that dollar amount.
    Mr. Edwards. If I were here and you were here at this 
meeting, and I assume neither one of us will be, 30 years from 
now, how confident would you be that you could say, you know, 
committee, we did what I said, $1 billion a year or so for 30 
years, and it is cleaned up?
    Mr. Owendoff. I believe a lot of that is going to be 
determined by what the ultimate end use is, working with the 
regulators and the stakeholders and the Native Americans. A lot 
of that is going to be influenced by whatthe end state is and 
how does it look.
    I want to give you just a quick example, though, 
Congressman Edwards, for the nuclear reactors, the nine 
reactors along the Columbia River. What we did last year was, 
we completed at C-Reactor to take that whole complex, we 
reduced the footprint by 80 percent, so all that is left is the 
reactor core. We cocooned that, meaning we put a roof over it, 
we precluded contamination from spreading into the environment. 
So we believe that that is a good approach for a lot of years.
    Now, it was just a few years ago that some were suggesting 
that we needed to take all of those reactors, put them on a 
giant space shuttle crawler and move them up into the disposal 
area where the large tanks are and the disposal cell is. That 
is a pretty significant investment, and we believe that we have 
a good solution now. It will stay there. It will go through a 
natural decay of the----
    Mr. Edwards. Where are we on the strategizing on Hanford? 
Are we still at that point at looking--you said the end use 
will determine a lot of the expenditure in the time frame. Are 
we still debating that to a great extent?
    Mr. Owendoff. Well, I think the good news is that we have 
projects that we are doing today, such as the stabilization of 
the plutonium oxides, taking the spent fuel and taking it out 
of wet storage, putting it into dry storage, taking the tank 
waste and putting that into glass. Those are things where I 
think there are clear-cut agreements on what needs to be done. 
So certainly for the next 10 to 15 years we have good agreement 
on what should be done and what approach should be taken.

                       nonproliferation programs

    Mr. Edwards. Okay, last question. We have two programs that 
were discussed in the discussion on the supplemental 
appropriations bill the other day, whether to spend some money 
for them. They are nonproliferation programs with Russia, in 
terms of bringing some of their nuclear grade materials to the 
United States. I understand the Vice President is going to sign 
some sort of an agreement on one of those two plans, maybe in 
the days or weeks ahead.
    How is that material going to be handled if we don't even 
have a final plan? If we don't have final waste placement in 
Nevada until 2010, what are we going to do? I think one program 
deals with essentially 50 tons of plutonium. Are you familiar 
with any plans on how to deal with that, or is that dealt with 
by a nonproliferation office?
    Mr. Owendoff. Congressman Edwards, that is correct, it is 
dealt with by nonproliferation. I am not trying to put you off, 
but my focus is on cleanup and others have that responsibility.
    Mr. Edwards. All right. But I assume someone--I mean, is 
this where that material would eventually go, I wonder? Their 
plutonium won't come over here, it is their enriched uranium.
    Okay, thank you. Thank you very much. Thank you, that was 
very helpful.
    Mr. Packard. Thank you.
    Mr. Frelinghuysen.

                            on-site storage

    Mr. Frelinghuysen. Thank you.
    Good morning, Mr. Barrett, and, Mr. Owendoff. I think these 
questions are directed to Mr. Barrett, relative to Secretary 
Richardson's new proposal for managing civilian nuclear waste, 
the proposition that the Department would pay for on-site 
storage. This proposition was generated by the Court of Federal 
Claims decree back in October; is that right?
    Mr. Barrett. It is a proposal in response to the interim 
storage initiatives that have taken place, which all are 
responding to the legal situation we are in with cases in the 
Federal Court of Claims.

                            litigation costs

    Mr. Frelinghuysen. But specifically in late October, the 
Department of Energy was told that it had to pay fuel storage 
costs for three closed commercial reactors; is that right?
    Mr. Barrett. Well, the court found that we had a breach of 
contract situation, and the court then proceeded to determine 
what is the appropriate amount of damages to be paid. That is 
an ongoing legal process and the court has not determined a 
financial amount yet.
    Mr. Frelinghuysen. You put in an amount, though, haven't 
you?
    Mr. Barrett. No. The claims in those first three cases are 
for $288 million plus. In our audit, we have looked at the 
liabilities due to the litigation, and following normal 
accounting methods that are commercially used, have booked one-
half billion dollars in our financial statements. These will be 
in our report to Congress that will be coming to you in the 
near future.
    The Department of Justice, in the hearing on February 10th, 
estimated that it could be up to $8.5 billion for those first 
10 cases.

                            on-site storage

    Mr. Frelinghuysen. Well, it is somewhat of a shift of 
position from last year to this year, that the Secretary is 
talking about paying for on-site storage, having the DOE pay 
for that; is that correct?
    Mr. Barrett. Well, the Secretary is addressing a need that 
the Federal Government has to deal with this litigation. It is 
a serious matter. And the Secretary and the administration have 
a good faith proposal to discuss the issue, and that includes 
the concept of taking title and paying and managing some of the 
storage costs at utilities to try to mitigate the litigation 
situation that we are all entangled in.

                fiscal year 2000 budget request funding

    Mr. Frelinghuysen. But you recommended $409 million, an 
increase of $51 million over fiscal year 1999; isn't that 
correct?
    Mr. Barrett. That is correct, but it has nothing to do with 
taking title to spent fuel. There is nothing in our fiscal year 
2000 budget request as far as budget authority for that.
    Mr. Frelinghuysen. What does the $51 million have to do 
with then?
    Mr. Barrett. That is to do scientific work at Yucca 
Mountain, and going through the processes to determine if the 
Yucca Mountain site is suitable or not. It does not have any 
expenditures or costs in there for the litigation, other than 
support for the continuing administrative processes. There is 
no money in the fiscal year 2000 request to implement the 
concept that Secretary Richardson discussed.

                  funding profile for on-site storage

    Mr. Frelinghuysen. We have this proposition to pay for on-
site storage of civilian nuclear waste. What do you anticipate 
the funding profile would look like in outyears for nuclear 
waste funding as a result of this proposition? I know you have 
described some of what it might cost. What is the landscape 
going to look like?
    Mr. Barrett. As the Secretary described, we have done some 
very rough estimates. It could be up to $2 to $3 billion to the 
year 2010, which if Yucca Mountain continues would be when we 
start receiving waste at Yucca Mountain, 2010. So the cost 
profile that the Secretary described was up to $2 to $3 billion 
to 2010. It starts lower and increases with time as we would 
have to, under the contracts, take more and more fuel.
    Mr. Frelinghuysen. So we will never see level funding like 
we have seen as a result of this new initiative?
    Mr. Barrett. Under any circumstance in the high-level waste 
program, the costs are going to go up in the future.
    Mr. Frelinghuysen. Escalate?
    Mr. Barrett. Yes.

                     nuclear waste fund off budget

    Mr. Frelinghuysen. Is the administration recommending 
taking part of the nuclear waste fund program off budget like 
it is being proposed in the Senate?
    Mr. Barrett. We have no specific proposal regarding that.
    Mr. Frelinghuysen. What is your reaction to that proposal?
    Mr. Barrett. To what, which proposal?
    Mr. Frelinghuysen. The Senate, some Senators are proposing 
taking a part of the nuclear waste fund off budget.
    Mr. Barrett. I believe this was the Murkowski legislation 
that was introduced yesterday?
    Mr. Frelinghuysen. Yes.
    Mr. Barrett. I have not seen the Senate bill, so I prefer 
not to comment on that.
    Mr. Frelinghuysen. So you don't have any reaction to it?
    Mr. Barrett. No. The Secretary stated that it is important 
that the funds that are paid by the ratepayers be used for 
their intended purpose, to solve a long-term problem, without 
imposing any undue burdens on either the ratepayers nor the 
taxpayers as we deal with this difficult situation over the 
next coming decade.

                        state of nevada funding

    Mr. Frelinghuysen. I see that you are recommending $12.3 
million for the State of Nevada and nearby units of government 
to monitor the Yucca Mountain activities. What guarantees will 
the department make that these funds will not be used by the 
State to fight the waste program?
    Mr. Barrett. Those funds are for oversight under the 
Nuclear Waste Policy Act provisions, that will be audited by 
the cognizant financial auditors to assure that they comply 
with the Act's requirements.
    Mr. Frelinghuysen. So you are assuring us, since this 
committee had some concerns last year, that those monies aren't 
going to be used to lobby against Yucca Mountain? You are 
talking to a Yucca Mountain supporter. I would like to have 
that assurance.
    Mr. Barrett. They are not to be used for that, and that is 
what the independent auditors will check, that the monies 
appropriated are expended for their intended use.

                   accelerator transmutation of waste

    Mr. Frelinghuysen. Also last year this committee provided 
$4 million from the general revenues to pay for research on 
treating high-level radioactive waste with advanced particle 
accelerators. Has that money been spent? What has the 
department learned to date? And why has the department decided 
not to request funds this year for a similar effort?
    Mr. Barrett. In fiscal year '99 the monies were given to us 
to provide a ``road map'' on the scientific aspects of 
accelerator waste transmutation, including what work needs to 
be done, what the benefits would be for society, and the 
institutional aspects. We are in the process of doing that 
right now. Some of the world scientific experts are meeting 
this week in Albuquerque.
    Mr. Frelinghuysen. How has the money been spent?
    Mr. Barrett. The money is being spent as we speak.
    Mr. Frelinghuysen. How much money has been spent to date, 
and what have you learned?
    Mr. Barrett. How much money has been spent? I do not know 
exactly how much has been costed. It has been hundreds of 
thousands of dollars that have been costed out of the $4 
million. I don't believe that most of the money has been costed 
yet. We expect that we will come close to expending that $4 
million by the end of the year to produce the road map for the 
Congress. So I can take for the record exactly what has been 
spent to date.
    [The information follows:]

    As of February 28, 1999, $2.2 million has been obligated. It is too 
early to have reported accumulated costs against the obligations.

                   accelerator transmutation of waste

    Mr. Barrett. Now as far as what we have learned, we had the 
world experts last month here in the United States at a meeting 
that went over the road map, the advantages, the scientific 
challenges that lay ahead, and the appropriate technologies to 
use. They are laying that out now.
    Mr. Frelinghuysen. Have they reached any conclusions?
    Mr. Barrett. Well, as in many such endeavors, there are a 
lot of wishes that people have; if this proves out, this will 
be very successful. So they are going through that now to 
prepare the road map. There are potential advantages of it. It 
can supplement and augment any repository site, but it does not 
replace a repository. It doesn't completely eliminate the need.
    Mr. Frelinghuysen. Does the Department's decision not to 
request funds this year for this effort signal anything?
    Mr. Barrett. No, sir, it does not. I believe that the 
Congress asked for the road map to look and see what should be 
the appropriate path forward regarding ATW. We believe it is 
valuable R&D, but we did not put money in under the civilian 
program for it until we see the results of the road map.
    Mr. Frelinghuysen. Great, thank you. I'll have 
additionalquestions later. Thank you, Mr. Barrett.
    Thank you, Mr. Chairman.
    Mr. Packard. Thank you.
    Mr. Clyburn.

                   characterization of yucca mountain

    Mr. Clyburn. Mr. Chairman, I appreciate the testimony of 
our witnesses today, but more importantly, I fully appreciate 
the complexity of their task and I place my personal support 
for the mission they oversee.
    Mr. Barrett, I am not going to have a specific question for 
you, but I do want you to know that when Secretary Richardson 
was here, I believe last week, I expressed to him my keen 
interest in expediting the characterization of Yucca Mountain. 
Now, I know that you want to make sure Yucca Mountain's 
schedule is based upon science, and I know you want to be 
assured that all of the empirical data are supportive of Yucca 
Mountain as the best-suited site for this repository. I simply 
want you to know that I am very interested in us not having any 
unnecessary delays, and I am sure you understand my concern 
about that.
    Mr. Barrett. Yes, sir.

                savannah river site alternatives to itp

    Mr. Clyburn. Now, Mr. Owendoff, as you can well imagine, I 
am keenly interested in your programs. The Savannah River site 
I think has contributed mightily to the Nation's defense, and I 
am sure you will agree with me that South Carolinians have paid 
a heavy price for their patriotism. In fact, recent reports 
indicate that we don't know how heavy that price has been. Now, 
I know you have briefed the staff on this, and I appreciate 
that, but I do have some specific questions, if you don't mind.
    First, do you feel that the $102 million that you asked for 
the ITP alternative is adequate? And if you think that is 
adequate, can you tell me what you expect this program to cost 
us in fiscal year 2001? And, finally, do you believe that the 
program can be increased in the outyears without threatening 
the stabilization in the canyons program?
    Mr. Owendoff. Congressman Clyburn, we are certainly 
sensitive to how we balance at Savannah River the operation of 
the canyons, and the operation of the defense waste processing 
facilities, the vitrification facility which converts high-
level waste into a glass form. Certainly for the In-Tank 
Precipitation project, we believe in looking for an ultimate 
solution that we will need to select this next year. We are 
looking at three alternatives, which I believe you have been 
briefed on.
    And we believe that the $100 million in the 2000 request is 
an appropriate amount. I do not have an idea of what the 2001 
request should be, because it will be based a lot on what we 
learn over this next year in our additional research efforts 
and in some of our systems design work, some of the basic 
concepts, not really the design.
    So I believe the request is appropriate. We certainly are 
sensitive to the need for the production of glass, and that we 
need an alternative to the in-tank precipitation process in 
order to ensure that the glassmaking continues at an 
appropriate stable pace.

                      support for science programs

    Mr. Clyburn. I notice the Chairman I think acknowledged 
that we did have some Close Up students here. I think they 
left.
    But I notice in your budget you have decreased your request 
I think from over $21 million down to less than $15 million 
requested for fiscal year 2000 in your university programs, and 
I also notice that in your basic science program that you have 
decreased from $46 million down to $32 million.
    Now, I consider these programs to be very, very important, 
and I know you have to be very careful with tax dollars, as we 
have to be, but I do not wish for us to be penny wise and pound 
foolish. I think these programs are very, very important, and 
we ought to be looking at ways to ensure that our young people 
or students, especially, are trained in environmental 
management.
    I wanted you to know that I have some real strong feelings 
about these kinds of programs, and I would not want us to begin 
to deemphasize them. This kind of decrease in expenditures in 
this program seems to be very, very significant, and I don't 
quite understand why we are doing that.
    Mr. Owendoff. Congressman Clyburn, within the environmental 
management program--and let me state that the Secretary is 
certainly concerned about how do we ensure that there is 
appropriate support for education in the secondary schools and 
in the colleges, and he is looking at how to address that. 
There has been concern in the past, certainly by various 
committees in the Congress, that we be able to ensure that the 
money that is appropriated for environmental management goes 
towards cleanup.
    One of the concerns that we have had in the past is that 
funds might tend to migrate to other activities. So we believe 
it is necessary to have that balance and keep things very 
focused.
    Now, as far as the difference between the fiscal year '99 
and the fiscal year 2000 budget request, within environmental 
management in the cleanup program we have a lot of technologies 
that have been developed, and for many of the activities we are 
into the actual cleanups. So the research that may be required, 
especially the basic research that the universities do or that 
may come through in the science program, is really going to 
impact things 10 to 15 years down the road.
    The number of needs that we have in that area has reduced 
somewhat. We certainly have needs in the high-level waste and 
spent fuel and other areas, but we don't have large 
requirements in the soil and groundwater area. So we have a lot 
of technologies that have been developed. This committee has 
been very supportive of us in our technology development 
efforts. What I believe we need to do now is to get those 
actually in place and to then have an appropriate funding level 
that goes to the science area, to the universities, and in 
keeping the pipeline appropriately full with other technologies 
that can help us with our larger problems.
    So it is a balance, Congressman Clyburn. We are not 
deemphasizing science. We have looked hard at how we balance 
the resources.
    Mr. Clyburn. Well, thank you for that. You know, I am very 
sensitive to the technology and all of that. But as you can 
imagine, in South Carolina particularly I am also interested in 
the attitudes that develop among its people and what kind of 
information that they have and what kind of orientation that 
they have to these kinds of issues. Because we can have all the 
technology in the world, but if the people that are going to 
feel the impact of this are not sufficiently educated and 
trained, I am not too sure that it gets us there.
    And so that is why I want to see as many people as we 
possibly can receiving the benefit of the taxpayers' 
dollars,when we are talking about training people for the future in 
this all-important field.
    Mr. Owendoff. Yes, sir.
    Mr. Clyburn. And thank you, Mr. Chairman.

                             level funding

    Mr. Packard. Thank you, Mr. Clyburn.
    Mr. Barrett, you have asked for a $51 million increase, 
which is a substantial increase, percentage-wise over 10 
percent. What if we, because of budget caps or other 
constraints, can do no more than level funding and perhaps even 
decrease virtually all categories, what effect would that have 
on your programs?
    Mr. Barrett. That would force us to reduce the work that we 
plan to do, which would force a schedule slip for the important 
milestones that we discussed. It would depend on what was cut. 
Basically, the License Application in March 2002 is our current 
schedule. That would have to move out in time. Also the 
Presidential recommendation, which is a July 2001 milestone, 
that would have to slip out in time. We believe that would be 
very unfortunate.

                             2010 deadline

    Mr. Packard. With litigation still pending and a variety of 
other possibilities, if in fact there are problems with the 
environmental impact statements along the way, if any one of 
the steps that you have outlined on your chart were difficult 
or delayed, how would that effect the 2010 deadline?
    Mr. Barrett. Probably it would have to slip also. If they 
start to stack up, once you miss time in the beginning, it is 
very hard to make it back up. The process would be in March 
2002 we would submit the application to the Nuclear Regulatory 
Commission. They would go through an extensive process there 
that is provided for by the statute. The NRC is preparing for a 
3-year licensing period.
    If we are successful in justifying our case, then in late 
2005 we would be given permission to start construction, 
basically a close to 5-year construction period to build all of 
the receiving buildings and the tunnels and start waste 
emplacement in 2010. If we have schedule slips in the front 
end, it will most likely lead to schedule slips in the back end 
as well.
    Mr. Packard. In other words, if the application, if the 
license application is not made by 2002, it will take all of 
the additional eight years to prepare for actual acceptance of 
waste?
    Mr. Barrett. Very close, yes, sir.
    Mr. Packard. Any slip will slip the whole system?
    Mr. Barrett. Most likely, yes.
    Mr. Packard. What implication would that have on funding?
    Mr. Barrett. It is going to cost more in the long run. The 
delays always cost more money than doing it promptly, so the 
long-term costs will be more. The actual cash flow of those 
years where you are delayed would obviously be less, could be 
less. Under any scenario, taking title, building facilities, it 
is going to cost more money.

                            on-site storage

    Mr. Packard. When do you think we will have details on the 
Secretary's proposal?
    Mr. Barrett. Well, it depends upon the utilities. The 
Secretary stated the other day that it is up to the utilities 
to come back and speak to us about what would they expect to do 
regarding this, what kind of concept it would be. For example, 
the costs would be more if it were expected that the Department 
of Energy would actually manage some of these facilities, 
versus if the utility was willing to manage them itself. It 
could be a financial reimbursement. So further details depend 
upon hearing back from the utilities regarding the proposal 
that the Secretary advanced.

                  foreign countries disposal programs

    Mr. Packard. How do we in this country compare with foreign 
countries, other countries, in disposal programs? Are they 
doing better or worse than we are doing?
    Mr. Barrett. For developing the geological repository, we 
are probably the leaders in the long-term permanent solution. 
The French and the Germans are very close to where we are with 
repository programs. Their programs are not dissimilar to ours.
    Mr. Packard. Are their efforts in the deep geological 
repository system?
    Mr. Barrett. Yes, those countries do have deep geologic 
repository programs. They also have different fuel cycles, 
reprocessing in France and other countries. The Swedish have a 
program for geologic disposal. They are all at various stages. 
Some countries have chosen sites, others have not.

                        peis lawsuit settlement

    Mr. Packard. Mr. Owendoff, the department settled a lawsuit 
with the environmental groups for $6.25 million. Why did they 
settle? Would it have cost more had they gone on with the 
litigation? And assuming that the judgment would have gone 
against the department, how would the cost compare with the 
settlement?
    Mr. Owendoff. Mr. Chairman, we believe that the benefits 
were probably twofold on this settlement agreement. One, as we 
had indicated, we had initially been looking at preparing a 
programmatic environmental impact statement for our groundwater 
and soil cleanup activities. However, we believe that it was 
appropriate that those are local decisions that are worked with 
the regulators and the stakeholders locally, and they were not 
national decisions such as decisions that we have to make for 
transuranic waste treatment as well as high-level waste 
treatment.
    So what the disagreement back and forth was, was should we 
pursue and prepare that environmental impact statement, which 
we felt was going to be very difficult for us to do. It would 
be very costly to have scoping meetings, and we really were not 
going to get to the point where we would have a useful product 
in the end. The cost could have been easily five to six times 
that amount of money agreed to in the settlement, and we still 
would not get on with cooperation, of ``let's move on'' with 
the cleanup, focus our efforts on the cleanup. That is the 
reason we felt it was appropriate to settle.
    Mr. Packard. Was there any analysis as to the cost 
differences, potential cost differences?
    Mr. Owendoff. Yes, sir, we did look at what the costs, the 
potential range would be for preparing an environmental 
impactstatement. As I said, it could have gone anywhere from three 
times up to I think six times.
    Mr. Packard. With the permission of the ranking member, I 
am going to go to those who came before I start the second go 
around. Mr. Latham, please.

                     foreign research reactor fuel

    Mr. Latham. Thank you, Mr. Chairman. I will be quite brief 
here. I think maybe the question arose earlier about receiving 
nuclear waste from foreign countries. Are we being compensated 
at all, and where is the waste going? Where are we storing 
this?
    Mr. Owendoff. As far as my responsibility, Congressman 
Latham, in foreign research reactor fuel, during the fifties 
this was fuel that during the Eisenhower Administration, that 
we were trying to--other countries were wanting to get into the 
nuclear business, and instead of them developing the capability 
to produce the fuel, we said that we would work with them on 
some research reactors and we provided the fuel.
    What we are now doing is, under the nonproliferation 
umbrella, is saying it is important for us, instead of having 
the fuel out there, to return it to the United States. Those 
countries that have the ability to pay, we are receiving funds 
from them.
    Mr. Latham. What countries?
    Mr. Owendoff. I know specifically Germany, most of the 
Western European countries.
    Mr. Latham. Where is it being stored here?
    Mr. Owendoff. Two locations. At the Savannah River site, 
and some amount at the Idaho site.

                             transportation

    Mr. Latham. Idaho is not a major center. I think we have 
one nuclear plant there. But the transportation, if we ever do 
get to the point with the more permanent storage site, can you 
tell us about the transportation issue and about the safety 
issue?
    Mr. Barrett. Yes. The nuclear transportation of spent fuel 
has been going on worldwide for over 40 years and it has an 
exemplary safety record. It is fully regulated by the 
Department of Transportation and the Nuclear Regulatory 
Commission. And for the Yucca Mountain, if it becomes a 
repository site, we would prepare a transportation system that 
will meet all current safety regulations for the transportation 
across the United States. Those same regulations are used for 
the shipments that go on today in the United States, such as 
the research reactor fuel that is brought back for 
nonproliferation reasons that Mr. Owendoff just described.
    Mr. Latham. What has been the best means of transporting?
    Mr. Barrett. The transportation of spent fuel usually takes 
place by rail and also by truck. It can go either way. The more 
efficient method is by rail, because you can handle heavier 
packages by rail than by truck.

              low-level and mixed low-level waste disposal

    Mr. Latham. Obviously, the security is a large issue in 
that concern and the concern we all have.
    There were some recommendations last year by the OIG that 
you could improve the management of low-level and low-level 
mixed waste. Has the department made changes in their analysis 
of the construction of the new on-site disposal facilities?
    Mr. Owendoff. Congressman, what we look at is, again, a 
balanced approach between what is the appropriate amount of 
material by quantity and activity level that should be disposed 
of on site, and what amount of material can go to a commercial 
facility. We believe that we have made appropriate changes to 
our management approach. We just recently issued a policy 
analysis where we had indicated that we will continue to 
encourage commercial facilities to work with the States, to get 
licenses from the States so that we can then utilize those 
facilities on a competitive basis. So I believe we have taken 
those steps.
    Mr. Latham. Thank you, Mr. Chairman.

                     foreign research reactor fuel

    Mr. Packard. Thank you. May I just return to one of the 
questions that Mr. Latham asked regarding the receiving of 
foreign waste? I am aware that we have an obligation there, but 
has any attempt been made to find repository sites in the 
countries where it was being used, rather than shipping it back 
here to sites that we do not have? Has there been any effort to 
look for sites, maybe even help pay for those sites, and make 
it more cost effective than to simply bring it back and store 
it ourselves?
    Mr. Owendoff. Mr. Chairman, I think the main difference is 
the level of that material, that it is highly-enriched uranium 
versus low enriched uranium, such as in Germany their 
commercial facilities use low enriched uranium. I can provide a 
fuller text for the record, but in basic concept, this higher 
activity material is significantly different from what the 
countries normally have, and that made it appropriate for us to 
return the highly enriched uranium to the United States.
    [The information follows:]

             Receipt of Foreign Research Reactor Spent Fuel

    The spent fuel being shipped to the United States under the 
Foreign Research Reactor (FRR) Spent Nuclear Fuel (SNF) 
Acceptance Program contains uranium that was enriched in the 
U.S. and was initially exported under the ``Atoms for Peace 
Program'' in the 1950's. Under this program, the foreign 
countries agreed not to establish nuclear weapons programs in 
return for assistance from the United States in peaceful uses 
of nuclear technology. One of the ways in which the United 
States provided this assistance was to help foreign countries 
establish research reactors, as well as provide enriched 
uranium to fuel those reactors. Initially the fuel these 
reactors used was highly enriched uranium (HEU) (i.e., nuclear 
weapons-useable uranium). The spent fuel from these reactors is 
now being shipped to the U.S. as part of a nuclear weapons 
nonproliferation policy that is designed (1) to remove from 
international circulation as much as possible of the weapons-
usable HEU that originated in the United States, and (2) to 
shift foreign research reactor operators away from the use of 
weapons useable HEU fuel, thereby supporting the elimination of 
the use of this material in civil commerce.
    The Environmental Impact Statement, prepared to evaluate 
the potential impacts of implementing this program, considered 
management of the spent fuel overseas (which would have 
required the use of a foreign repository). However, the 
Department determined that such as alternative would not 
provide an incentive for reactor operators to switch to low 
enriched uranium (LEU), a non-weapons grade material, and would 
likely result in continued reprocessing and use of weapons 
useable HEU in international commerce. Additionally, many of 
the countries with research reactors do not have the technical 
or regulatory infrastructure to manage this material. Finally, 
the United States would not be able to impose conditions on the 
reactor operators or reprocessing firms to ensure that United 
States nuclear weapons nonproliferation objectives would be 
met.
    DOE and the Department of State do not seek to indefinitely 
accept or otherwise manage all spent nuclear fuel from foreign 
research reactors. Rather, the purpose of the policy is to 
recover as much United States enriched HEU as possible from 
international commerce, while providing the foreign research 
reactor operators and their host countries time to convert the 
reactors to LEU fuel and make arrangements for disposition of 
the subsequently generated LEU spent nuclear fuel. The 
Department has made it clear to the reactor operators that, 
after the acceptance policy expires in 2009, the foreign 
research reactor operators and host countries must be prepared 
to implement their own arrangements for disposition of their 
spent nuclear fuel.
    There is approximately 5 metric tons of HEU around the 
world that is eligible to be shipped to the United States under 
this program. To date, we have safely completed eight shipments 
to the United States, containing enough material to make 
approximately 14 crude nuclear weapons. The remaining shipments 
under the program would retrieve enough uranium to make 
approximately 75 more.

    Mr. Packard. Thank you.
    Mr. Visclosky.
    Mr. Visclosky. Mr. Rogers?
    Mr. Packard. He would prefer to wait for a short time.

        Responsibilities of the Environmental Management Program

    Mr. Visclosky. Mr. Owendoff, a number of us have asked 
about specific figures for specific sites, and you have 
mentioned a couple of times there is a balance that you have to 
strike. How many sites do you have concern for and jurisdiction 
over?
    Mr. Owendoff. I have the responsibility for the cleanup, 
the nuclear legacy cleanup, at all the sites within the 
department.
    Now, certainly there are the major sites where there is not 
a continuing DOE, Department of Energy, mission, such as Rocky 
Flats and Fernald. So at those locations I am the primary 
secretarial officer with the responsibility for the site.
    The same holds true for Savannah River, because most of its 
mission is cleanup, although there is a significant defense 
mission down there, but from the dollar standpoint a lot of the 
funding is for environmental work. Hanford is the same. At Oak 
Ridge, site activities are split, about a third each among 
three DOE programs. And at Idaho most of the money supports 
environmental cleanup.
    But in general, though, we have or have had responsibility 
over 100 sites. We have the 48 sites that now require active 
cleanup, so at some point at those 48 sites that we have in the 
program, there is some level of cleanup effort.

                   Accelerator Transmutation of Waste

    Mr. Visclosky. Okay. Mr. Barrett, on the ATW program, is 
there any estimate at this point as far as how long it would 
take to develop that technology? Is there any estimate yet as 
to what the cost might be? In an earlier question and answer, I 
know you said it is a longer term proposition.
    Mr. Barrett. That is what the road map will lay out, 
exactly what those costs are. It is many decades before there 
may be any appreciable processing of any of the waste. First 
you go through the research and development activities. Then 
you would step to a prototype where you build a smaller 
facility, and then to a demonstration plant, and then actually 
go into production after that.
    Mr. Visclosky. So the concept potentially is very 
interesting long-term, but it is not going to provide us any 
relief short-term, as far as the storage problems we face?
    Mr. Barrett. That is correct, sir.
    Mr. Visclosky. Would we be better off, given the long-term 
nature of this research as it stands now, to be doing that 
under the department's science program?
    Mr. Barrett. It certainly could be there. It is a very 
valuable research and development activity, and it could be 
under the Office of Science.
    Mr. Visclosky. It is an interesting concept, but we have a 
problem right now as far as storage. My concern is not muddying 
the waters more than they are already.
    Mr. Barrett. That is an honest concern.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Packard. Mr. Rogers.

          Vitrification of High-Level Waste at Savannah River

    Mr. Rogers. I don't know who is best to answer this, but 
the department is reducing by half the number of canisters of 
high-level waste to be vitrified in the defense waste 
processing facility at Savannah River, from 200 in fiscal year 
1999 to 100 in fiscal year 2000, but the funding request is the 
same as in the fiscal year 1998 when 250 canisters were made.
    Mr. Owendoff. I believe, Congressman Rogers, there is a $25 
million reduction in what would actually go to the Defense 
Waste Processing Facility. But let me indicate that the site 
manager is working with Westinghouse, the contractor there, and 
they have taken another look at the level of canister 
production.
    At the time the budget request was prepared, the sense was 
that we may have to drop down to 100 canisters, but they now 
tentatively believe that they can produce about 175 canisters 
there this year. The challenge that we have, Congressman, is 
there is a certain infrastructure that it takes to operate the 
facility.
    What we are balancing with the level of canister 
production, as I had a little discussion with Congressman 
Clyburn earlier, is how much feed material do we have, and will 
we run out of feed material until we get the in-tank 
precipitation follow-on project that can separate the liquids 
into high-level fraction and low-level fraction. Right now we 
are processing sludges. What we don't want to do is run out of 
sludges going through the facility and have to put it into 
standby mode.
    I am very concerned about the efficiencies of operating 
that facility and the cost-effectiveness and how many people it 
takes to operate. I have challenged the site, as well as 
Westinghouse, stating that we can't have the same dollar amount 
to operate and yet significantly reduce the production. So we 
are having continuing discussions to determine how we can meet 
the production rates but not have an idle facility 2 to 3 years 
down the way.

        Decommissioning the Gaseous Diffusion Plant at Oak Ridge

    Mr. Rogers. Now, switching to Oak Ridge, describe the 
current contract with BNFL to decommission the gaseous 
diffusion plant at Oak Ridge, including the cost, scope, 
milestones for completion by fiscal year, and so on.
    Mr. Owendoff. We have the large gaseous diffusion 
facilities at Oak Ridge. In this case the scope of the BNFL 
contract is cleanup of three buildings. The original approach 
was we would have to take all of those large diffusers which 
were used to enrich uranium, all of those large diffusers, and 
dispose of them in disposal facilities; that we would not be 
able to reuse or recycle very much of the material, principally 
the nickel. There is high quality nickel in those diffusers 
that we didn't believe could be recycled.
    What BNFL did, they came in and said they have a technology 
that they can use to decontaminate the nickel so that it can be 
recycled and reutilized, and thus offsetting, by selling the 
nickel, offsetting the cost to decontaminate the facility.
    So what we have done is entered into a fixed price contract 
with them to pull the equipment out, to decontaminate the 
steel, aluminum, and--the tough part--to decontaminate the 
nickel. So that was the trade-off that we made. Now the cost is 
nominally $250 to $275 million. So we have taken a project that 
was estimated to cost us upwards of $800 million down to $200 
million.
    Mr. Rogers. What timetable are you working on?
    Mr. Owendoff. They are there today, and I want to say it is 
about a 6-year contract to do those three facilities. I may be 
a little bit off on the time, but nominally, that is it. They 
have been there for about almost a year.

                 Uranium/Thorium Reimbursement Program

    Mr. Rogers. What is the total estimated cost of the 
uranium/thorium reimbursement program?
    Mr. Owendoff. I am sorry, I will have to provide that for 
the record.
    [The information follows:]
                 uranium/thorium reimbursement program
    The current estimated cost for the uranium/thorium reimbursement 
program is in the range of $400 to $450 million. The federal share of 
claims approved by the Department of Energy through FY 1998 is 
approximately $285 million. The federal share of approved claims and 
the licensees' estimates of their future claims provided in FY 1998 
would total approximately $490 million if there were no limits on 
reimbursements. However, Title X of the Energy Policy Act of 1992 
established several authorized ceilings on reimbursements. The total 
amount of approved claims and licensees' estimates that are within 
those ceilings is about $380 million. One of the authorized ceilings is 
that the Department can not reimburse remediation costs in excess of 
$6.25 per dry short ton of byproduct material, but the Secretary is 
given the discretion to reimburse any excess funds in FY2005 to 
licensees whose unit costs exceeded that amount. The estimate of total 
program costs assumes that costs in excess of $6.25 per dry short ton 
are reimbursed. Since the authorized ceilings are adjusted annually for 
inflation, it is not possible to make a precise estimate of total 
program costs. The uncertainties associated with the licensees' 
estimates and the rate of future inflation are reflected in the 
Department's current estimate of total program costs.
    Through FY1998, $197.8 million has been reimbursed to the 
licensees. In April 1999, a reimbursement of $29.9 million will be paid 
to the licensees, bringing the total reimbursed by the Department to 
$227.7 million. This would leave a balance of approximately $57 million 
of approved claims to be reimbursed in the future.
    The licensees that receive reimbursements are: American Nuclear 
Corporation; State of Wyoming (the State is performing the remedial 
action for the American Nuclear Corporation site under a Confirmatory 
Order issued by the Nuclear Regulatory Commission); Atlantic Richfield 
Company; Atlas Corporation; Cotter Corporation; Dawn Mining Company, 
Homestake Mining Company; Pathfinder Mines Corporation; Petrotomics 
Company, Quivira Mining Company; Tennessee Valley Authority; Umetco 
Minerals Corporation (two sites); Western Nuclear, Incorporated; and 
Kerr-McGee Chemical Corporation. All of the sites eligible for 
reimbursement have remediation underway or have completed remediation. 
Remediation of the Atlantic Richfield Company site and the Tennessee 
Valley Authority site is complete, and the Nuclear Regulatory 
Commission has terminated the licenses for both sites.

                     Uranium/Thorium Reimbursements

    Mr. Rogers. While you are at it, also list what claims have 
been paid to date, what companies are currently being 
reimbursed in the program.
    Thank you, Mr. Chairman.
    Mr. Packard. Mr. Edwards.
    Mr. Edwards. Mr. Chairman, I will defer to other members.
    Mr. Packard. Mr. Knollenberg.

                          Yucca Mountain Site

    Mr. Knollenberg. Mr. Chairman, thank you very much.
    Mr. Barrett, we have talked about some of what I am going 
to ask you before, I know. As I have discussed with some other 
DOE witnesses that came before this committee earlier this 
month, I see a policy that seems to be inconsistent being put 
forth by the Clinton Administration. They claim they want to 
maintain strong economic growth, which requires an abundance of 
reliable and inexpensive energy. They want to reduce greenhouse 
gas emissions. Yet they create almost contradictory policy with 
the environment when it comes to nuclear energy, which could 
give them both. It could give them safe, reliable, inexpensive 
energy, and enormous strides in reducing greenhouse gas 
emissions.
    One of the obstacles is DOE's failure, I believe, to live 
up to their obligation to take the spent nuclear fuel from the 
utilities by the year 1998. That is old business, I know, but 
it is disturbing, and the temporary solution that Secretary 
Richardson has pushed forward appears to be a non-starter with 
Congress. Without our nuclear waste policy resolved, the very 
future of nuclear energy in the United States, I think, remains 
in doubt.
    I know you have continually shared with this committee, and 
I will ask the question again, there are no show-stoppers with 
respect to Yucca and we should be able to get on with it. Does 
that still hold true today? I know you did answer earlier. You 
can answer it with respect to seismic activity. We have been 
through some of that before. Is that still holding? If you talk 
about anything at all relative to the seismic activity that 
might be new, that might be disconcerting, that might be of 
concern. Do you see anything? Or are you still optimistic about 
that location being the repository it is designed for?
    Mr. Barrett. I am optimistic about the location. We still 
have scientific work to do. For example, you asked about the 
seismic activities. Although the recent earthquakes and issues 
like that are not a major concern to us, there was a report 
about the crustal strain based on some measurements made by a 
group of scientists out of California and Massachusetts, that 
they thought they saw strain rates that were higher than what 
the historical record would show. We are doing work to look at 
that, to confirm what those measurements are.
    I expect that it is not going to be anything that is major, 
but it is scientific work we need to do before we can take any 
conclusions to the President about the suitability of the site. 
That is an example. So we have scientific work that the 
administration feels must be completed before a decision can be 
made.

                     Yucca Mountain Heat Treatment

    Mr. Knollenberg. Would heat treatment be one of those 
concerns that you want to get done?
    Mr. Barrett. Heat treatment? We are looking at heat 
treatment regarding metals and waste package materials and that 
sort of thing. Yes, some of the engineering work does need to 
be done to refine our designs. We are looking at different 
materials which are barriers to keep the nuclear waste 
contained, which include various materials such as ceramics and 
metals. Heat treatments and chemistry, is part ofour work plan 
in the fiscal year 2000 budget.
    Mr. Knollenberg. At this point you would still say there 
are no show-stoppers, things are on track?
    Mr. Barrett. That is correct, sir.

                   Accelerator Transmutation of Waste

    Mr. Knollenberg. Let me go to another question that Mr. 
Frelinghuysen asked, the ATW. It is my understanding there are 
several steps in the ATW process, Accelerator Transmutation of 
Waste. I will say it once and get it out of the way. I know 
there are several steps. Can you highlight the most important 
steps in the reprocessing that is required for spent nuclear 
fuel?
    Mr. Barrett. Well, it is an extremely complex technology, 
but in theory it can have great benefits in the long term. The 
first work that has to be done is to look into the physics and 
science and how that can be brought to bear in a practical 
sense. This technology involves very high energy accelerators, 
building on a lot of the good work done in Los Alamos with 
accelerators for tritium production; building on a lot of work 
done in France, Russia, Spain, Italy and other countries, to 
bring this together, to determine what are proper target 
materials, how you would do cooling, to actually get a neutron 
beam to perform the transmutation.
    In addition, you would have to have the targets prepared, 
where you would have to basically do chemical separation 
reprocessing, where you would have to take the fuel, and 
chemically separate it so you could actually fabricate targets 
so that the neutron beam could hit the high level toxic 
components, and you could change it by transmutation. A lot of 
that has to be done. It is going to be expensive to develop 
that but there are great benefits as well.
    Mr. Knollenberg. You covered it the way I wanted you to. 
The word ``expensive'' came up. I think that process is 
expensive. Let me ask you, if you can, describe vocally, and if 
you can't, perhaps do it in writing, how much has the 
department spent during the last 10 years on research on ATW, 
including theoretical research, related laboratory projects, 
support for NAS or NRC studies, including EM? I am getting a 
little lengthy here. Any other DOE offices, as well as the 
laboratory-directed research and development at national 
laboratories, how much money? If you can't put it into a number 
now, could you at least do that in writing? I would like to 
know now, if I could.
    Mr. Barrett. This is a very broad area. I am sorry I can't 
do that. It includes laboratory-directed funds that are not 
mine. We will take that for the record.
    [The information follows:]
                   Prior Year Funding of ATW Research
    In addition to the $4 million appropriated in FY 1999 for 
Accelerator Transmutation of Waste (ATW) research for the Office of 
Civilian Radioactive Waste Management, it is estimated that 
approximately $8 million has been expended on related research from FY 
1990 through FY 1998, funded by Laboratory Directed Research and 
Development funds at our Los Alamos National Laboratory (LANL).
    ATW related activities at LANL in FY 1996 through 1998 cost a total 
of $5.1 million. During fiscal years 1990 thorugh 1995, approximately 
$0.5 million per year, or $3.0 million in total, was expended from LANL 
LDRD funds on ATW related research. A small part of the work from 1990 
through 1995 was done at the Lawrence Livermore National Laboratory and 
the Sandia National Laboratories but was funded with the LANL LDRD 
funds.

 Fiscal Year 2000 Budget Request for Accelerator Transmutation of Waste

    Mr. Knollenberg. Let me go to another question, then. How 
much is the department's budget for ATW for fiscal year 2000?
    Mr. Barrett. We have not requested any direct funds for 
this. There are still ongoing activities in the defense area 
for accelerator technologies, but not in our budget.
    Mr. Knollenberg. There are some outyear budget monies 
perhaps for ATW research?
    Mr. Barrett. Not ATW per se. In these common science 
activities, there is a lot of synergism between the two. For 
example, the neutron beam technology and other activities, are 
being investigated by defense tritium production work.
    Mr. Knollenberg. If ATW works as expected or hoped, will it 
obviate the need for a geological repository?
    Mr. Barrett. We do not believe it will. Most do not. You 
can reduce the toxicity of the material, you can change its 
half life to some degree, but it does not eliminate the need. 
There is still a high-level nuclear waste stream even from all 
accelerator plans as we understand them.
    Mr. Knollenberg. Then the total cost, if I were to ask the 
question again, how much would the ATW cost to complete 
research and deployment? Would that be something you would have 
to supply in a written form?
    Mr. Barrett. I would prefer to. Basically to develop it, as 
far as in a production sense, it is many billions of dollars. 
But this is what the road map will spell out.
    Mr. Knollenberg. ``Many'' would be hopefully something we 
could define into some real terms, if you can do that in 
writing. What would be the earliest and expected date of 
deployment if research continues on schedule?
    Mr. Barrett. It has been claimed, depending on what that 
research program is, by some that within a decade you could 
start to do some demonstrations, some prototypical 
demonstrations. But as far as any meaningful production aspect, 
it is several decades away.
    [The information follows:]

                   Accelerator Transmutation of Waste

    The Accelerator Transmutation of Waste (ATW) road mapping 
process, currently well underway, will provide definitive 
answers to those questions by the end of FY 1999. However, 
preliminary estimates are available, based on many assumptions 
which may not prove to be correct. Those estimates assume that 
the technology development process would proceed in three 
phases: the first phase would involve several small scale 
tests, including irradiation at the Los Alamos linear 
accelerator of a lead/bismuth target being fabricated in 
Russia. That phase would cost about $120 million and take at 
least five years. The second phase would include the 
development and operation of a subcritical test facility (STF), 
over approximately a six-year period at a cost of about $500 
million. The final phase would involve the construction and 
start-up of a 500 thermal megawatt demonstration facility, 
requiring about seven years at a cost of about $3 billion. The 
total time from start to demonstration plant operation is 
estimated to take 18-20 years. The ATW road map being developed 
by the Department will provide more accurate information by the 
end of FY 1999.

                   accelerator transmutation of waste

    Mr. Knollenberg. How much waste, let me ask you, how much 
waste would be in the repository according to the current 
schedule if this deployment of ATW occurs on schedule?
    Mr. Barrett. Our plans would be, if all goes well at Yucca 
Mountain, to start emplacement in the year 2010. We would ramp 
up in a few years to a 3,000 metric ton emplacement rate. 
Depending on when that would start, after 10 years there may be 
20,000 tons emplaced.
    Mr. Knollenberg. What kind of facility, this is my last 
question, what type of facility or facilities would have to be 
built to take care of all the spent fuel and high level 
radioactive waste through the ATW process?
    Mr. Barrett. There would be very extensive facilities. 
Whether it is many facilities or one facility, it would be 
fairly large.
    Mr. Knollenberg. We are talking huge? Grandiose maybe?
    Mr. Barrett. Yes, sir, very large.
    Mr. Knollenberg. Thank you, Mr. Chairman.
    Mr. Packard. Mr. Frelinghuysen.

                escalating costs at yucca mountain site

    Mr. Frelinghuysen. Mr. Barrett, you talked earlier about 
escalating costs at Yucca, the administration's proposition to 
take over control of civilian on-site nuclear waste, and 
Chairman Packard basically asked this question. I wasn't 
entirely satisfied with your response. Working under budget 
caps, we have these escalating costs. Where are we going to get 
the money for these particular needs if all these costs are 
escalating, and what specific programs would have to be reduced 
to take care of these priorities? I assume these are superior 
priorities to other ongoing projects?
    Mr. Barrett. Well, within the civilian waste accounts, in 
our historical appropriations we are between the $300 and $400 
million total level. If we were to start major construction of 
a facility, such as the repository in 2005, or if we were to 
have a major initiative, such as the idea that the Secretary 
has proposed about taking title and paying for storage at the 
existing storage sites, there could be a substantial increase. 
A substantial increase would have to be dealt with by the 
administration, as well as by the Congress, within the budget 
structures that we have.
    Mr. Frelinghuysen. How are we going to do all these things? 
What is going to be reduced in order to accommodate these 
priorities?
    Mr. Barrett. We believe within the existing historical 
allocations that we are okay to go through the year 2000 and 
the 2001 date for site suitability. In the post-2001 time 
period something will have to be done. Exactly what that is, 
the Secretary has testified before Congressman Barton, that it 
needs to be fixed in the outyears. We all know that. Exactly 
the type of fix and how we are going to fix that, I don't have 
any details on how best to do that.
    Mr. Frelinghuysen. You can't give the committee any 
specific programs that might be reduced in order to accommodate 
these other priorities?
    Mr. Barrett. No, I could not.

                     nuclear waste fund off budget

    Mr. Frelinghuysen. For the record, can you give me the 
department's view on taking the trust fund off budget? I would 
like to get a specific reaction. In writing would be 
sufficient.
    Mr. Barrett. Yes, sir.
    [The information follows:]

                     Nuclear Waste Fund off Budget

    The Department has in the past, submitted to the Congress 
proposals to address the increased funding needs for the 
Civilian Radioactive Waste Management Program. The Department 
is willing to work with Congress to ensure that the repository 
program continues to be adequately funded. In exploring any 
funding alternatives, the Department's objectives would be: (1) 
that the Department impose no undue burdens on either utility 
ratepayers or the taxpayers; and (2) that the revenues raised 
by the nuclear waste fee remain available to complete the 
nuclear waste management system.

                        cost of on-site storage

    Mr. Frelinghuysen. You made reference to it earlier, what 
are these private companies paying for on-site storage? I 
thought your response was that it is an undetermined amount, 
but it is maybe $200 or $300 million or something. What is it 
exactly?
    Mr. Barrett. Well, it depends upon the specifics at a 
particular utility site. Some cost more than others. For 
example, if a utility has room in its spent fuel pool, and some 
reactors have very large pools, the additional cost due to our 
inability to take the material is very small.
    Some utilities have exhausted the space in their spent fuel 
pools and have to go to dry storage. When you go to dry storage 
but you still have an operating plant, there are additional 
costs there. The cost for establishing and licensing dry 
storage in an average reactor plant is somewhere in the 
neighborhood of $10 million per site, and then you start adding 
the canisters to store the fuel, and that costs about $1 
million per ton in round numbers, so how much you would pay 
depends on how much fuel there would be.
    In the case of a reactor that has finished its power 
production lifetime and it is shut down and has been 
decommissioned and the utility has no desire to be in business 
any more, they may wish to have the Federal Government take 
over the whole facility, and then there would be security costs 
and so on.

                            on-site storage

    Mr. Frelinghuysen. From our committee's viewpoint, what 
does this proposition mean? Is it in reaction to a court 
decision or decree? Or is there a realistic way of dealing with 
these costs, the possible assumption of these costs?
    Mr. Barrett. We, the Federal Government, the executive 
branch as well as the Congress, has a very difficult situation 
where we are unable to meet the requirements that were 
established in the 1982 act regarding moving the fuel, and we 
are in difficult litigation with the contract holders on that 
matter. But the Secretary had an idea and a proposal that could 
mitigate the situation that we are in with these damage claims. 
That is why he suggested that as a proposal to go forward.
    Mr. Frelinghuysen. So it is fair to say the devil is in the 
details and stay tuned?
    Mr. Barrett. Yes, sir.

                     consortium for risk evaluation

    Mr. Frelinghuysen. For a minute, could you concentrate on 
the work of the Consortium for Risk Evaluation with Stakeholder 
Participation? What has been done in that area, since all of us 
are believers in this committee on sound science? I guess that 
goes from Mr. Barrett to Mr. Owendoff.
    Mr. Owendoff. That is correct. The consortium we believe 
has done some excellent work at Savannah River in working with 
the stakeholders on understanding what are the risks that we 
have at the sites and what we see is their continued use at 
other sites across the complex.
    As you can appreciate, though, it often gets difficult when 
you have somebody from the outside coming onto a site. It takes 
some amount of confidence building with the stakeholders, what 
do they bring and what is their value added, to some extent. 
But I am certainly supportive of their efforts.
    Mr. Frelinghuysen. Well, you are supportive?
    Mr. Owendoff. Correct.
    Mr. Frelinghuysen. I assume it is a dialogue that hasn't 
always existed.
    Mr. Owendoff. Well, I think it has to do, Congressman 
Frelinghuysen, with again balancing monies and how much money 
is appropriated for this effort. I meet with the individuals 
about every 6 months about how can there be, let's say, more 
players in the business, what are my thoughts on how they can 
understand what the challenges are at each of the sites, and 
how can they go and help with the education and the awareness 
of people who have concerns about our cleanups.
    Mr. Frelinghuysen. This consortium is involved at both 
Savannah River and Hanford. Where else is the consortium 
involved?
    Mr. Owendoff. They have had discussions and worked at Oak 
Ridge, and it is primarily at those three sites that they have 
been concentrated. They have been working with our Federal Risk 
Center at the Chicago office on working at a number of sites, 
but the CRESP individuals are concerned. They don't want to 
dilute their capability, and they believe that the areas where 
we have our largest challenges are at Savannah, Oak Ridge, and 
Hanford. So I believe we are cooperating and having discussions 
on where they can be most effective, where they believe they 
have the ability to be most effective on their side.
    Mr. Frelinghuysen. How would you--what practical 
contributions have been made by the group?
    Mr. Owendoff. The one that comes to mind----
    Mr. Frelinghuysen. That is the bottom line. You support 
their involvement, they are involved, so I would like to know 
how would you characterize the practical contributions to date?
    Mr. Owendoff. The one example that I will use is at 
Savannah River, where they worked on evaluating what is the 
impact of low amounts of contaminants that are in the Savannah 
River itself and what is the impact of the contamination on 
fish that are in the river. I think they did some good research 
and some good analysis on what the dose that an individual who 
ate a lot of fish over long periods of time, would be, what 
would the cumulative impact be.
    And I think the they demonstrated that the potential 
impacts are very, very small and not at the levels that 
heretofore folks, absent some good science, had thought the 
impacts would be. So I think in that particular case it 
directly affected how many pump and treat systems we should put 
in place, what kind of active system we should have, as 
compared to what passive system we should have in place.
    Mr. Frelinghuysen. So you endorse their efforts?
    Mr. Owendoff. I do.
    Mr. Frelinghuysen. Something to be said for making our 
decisions based on sound science rather than sometimes 
political science.
    Mr. Owendoff. That is correct.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Packard. Thank you.
    Mr. Latham.
    Mr. Latham. I pass, thank you.

                     waste treatment at los alamos

    Mr. Packard. Let me ask one or two, and we are about to 
wrap up, I think.
    About a year and a half ago the Inspector General submitted 
a report regarding the Los Alamos National Lab, and they were 
spending about $1.70 per gallon on treating radioactive liquid 
waste, comparing that with the private sector of 10 cents a 
gallon. The department indicated then that they would be doing 
an analysis and seeing what was going on. I presume that has 
been done. Would you like to share with us any conclusions that 
have been made?
    Mr. Owendoff. Mr. Chairman, I will have to do that for the 
record. Let me if I may, though, just indicate that we, in 
working with the University of California which operates Los 
Alamos, have really given them over the past year to year and a 
half some very specific performance measures that we expect 
them to meet, not only in progress to be made but also in 
costs. Through those discussions we have indicated that they 
needed to do more competitive subcontracting, more comparison 
of costs for what they do in-house and getting those costs 
down.
    And we have seen that they have significantly reduced the 
costs in general, and a lot of the cleanup efforts that they 
had initially anticipated at a particular cost have been 
significantly reduced. So in general, I want to say we took a 
hard look. They came back and have drastically reduced their 
way of doing business to be more cost-effective.
    Mr. Packard. If you would do that for record. I might 
mention at this time that we have many questions that we would 
like to submit for the record and have your responses for the 
record, if you and your staff could do that for us.
    [The information follows:]

                 Treatment of Radioactive Liquid Waste

    The relevance of the conclusions is somewhat limited in 
that commercial cost data were difficult to obtain, and in 
general, typical commercial nuclear industry wastewater 
operations are less complex than DOE operations such as those 
at the Los Alamos National Laboratory (LANL). Nevertheless, we 
share your concern about the high cost for LANL to treat waste, 
a service that might be more efficiently carried out by 
commercial companies. A separate ``make/buy'' analysis for the 
LANL operation was subsequently performed with the conclusion 
that it would not be in DOE's best interest to use a 
subcontractor for wastewater treatment as long as LANL could 
meet certain cost reduction goals. If by the end of FY 1999 
these savings are not realized, the Department may consider 
issuing a Request for Proposal to obtain firm quotes from 
industry for wastewater treatment. Under the waste management 
re-engineering, the facility and operation are now the 
responsibility of Defense Programs (DP). As such, any decision 
about its operation, including consideration for impact to the 
laboratory's mission, would be made by DP.

                    disposal at the nevada test site

    Mr. Packard. Several sites are complaining that they are 
unable to ship to the department's disposal site in Nevada. 
What needs to be done to resolve that problem?
    Mr. Owendoff. We have been working on a programmatic 
environmental impact statement for low-level and mixed low-
level waste. We have to get a record of decision. We expect 
later on in this year to be able to get that record of decision 
out, and then that would allow those particular sites to ship. 
So it is a matter of working with the affected States that 
would have disposal capability, what would their expectations 
be at those sites, and what we have to have is additional 
discussion with those locations and the States.
    Mr. Packard. Thank you. I think I can submit for the record 
the rest of my questions.
    Any further questions, gentlemen?
    Thank you very, very much. For the benefit of the members 
of the subcommittee, the next hearing will be at 11 o'clock 
this coming Thursday.
    Again, we will submit for your response several questions 
we have not asked and some that have been asked. We very much 
appreciate your testimony and response to questions. Thank you. 
The hearing is adjourned.
    [The questions and answers for the record follow:]


[The official Commmittee record contains additional material here.]




                                          Thursday, March 18, 1999.

                    ATOMIC ENERGY DEFENSE ACTIVITIES

                               WITNESSES

DR. VICTOR H. REIS, ASSISTANT SECRETARY, OFFICE OF DEFENSE PROGRAMS
ROSE E. GOTTEMOELLER, DIRECTOR, OFFICE OF NONPROLIFERATION AND NATIONAL 
    SECURITY
LAURA S.H. HOLGATE, DIRECTOR, OFFICE OF FISSILE MATERIALS DISPOSITION

                            Opening Remarks

    Mr. Packard. Ladies and gentlemen, we would like to call 
this hearing to order. This is a classified hearing, and, as 
such, the procedure will be a little bit different than our 
standard hearing. We had a vote on the 4th of March that would 
allow us to hold this in Executive Session.
    Dr. Reis, I presume that you can verify that those here in 
the room have appropriate security clearances.
    Dr. Reis. Yes, I can, Mr. Chairman.
    Mr. Packard. Thank you very much.
    For the members of the subcommittee, I would like to remind 
you that some of the information we will be discussing today 
and that the witnesses will be providing us will be classified 
and should not be discussed outside of this room. That applies 
not only to the members of the subcommittee, but everybody in 
the room.
    One last reminder, I would ask that all cellular phones and 
two-way pagers and other unauthorized recording devices be 
turned off during this hearing. We would actually prefer that 
they not even be in the room.
    Also for the subcommittee members, and we only have the 
three of us at the time, and others will come and we will try 
to remind them, the intent of this hearing is not to get into 
the breaches of security at our labs and the espionage 
complaints that we read in the newspapers. We did not intend 
for that to be the issue or one of the issues here. We have 
arranged for a classified briefing by the appropriate people on 
that issue. We feel that these witnesses are perhaps not 
necessarily the ones that we would talk about here, and we 
would prefer it not be a part of this hearing. But next week we 
have scheduled a briefing that will be classified for the 
subcommittee members, and that will be the primary issue that 
we will be discussing at that time, if that is agreeable with 
the members of the subcommittee.

                  Oral Statement of Dr. Victor H. Reis

    Dr. Reis. Today we are very grateful to have with us the 
Assistant Secretary for the Office of Defense Programs, Dr. 
Reis. We are grateful to have you with us. We are looking 
forward to your testimony, as with all of your testimonies. I 
have read your complete statements, as you have submitted them, 
and we would prefer that you just don't read them. You can 
certainly either summarize or cover the entire part of your 
testimony. We would like to allow as much time for questions 
and answers as possible.
    Following Dr. Reis, we are grateful to have the Director of 
the Office of Nonproliferation and National Security, Ms. Rose 
Gottemoeller. I hope I pronounced that right. And Ms. Laura 
Holgate, the Director of the Office of Fissile Materials. I 
have read it so many times, and yet I never inquired exactly 
how to pronounce it. I assume it is fissionable material at 
least, and its disposition.
    Ms. Holgate, Ms. Gottemoeller, we are grateful to have you 
with us.
    We are grateful to turn the time to you, Dr. Reis.
    Dr. Reis. Thank you very much, Mr. Chairman. I want to 
point out, this is my 6th year of testifying before this 
committee, and this--I guess you are the fourth Chairman of the 
subcommittee. Last year I pointed that out to my old friend Joe 
McDade, and I said I hope it wasn't anything I said, but he 
went and resigned anyway.
    Mr. Packard. There is a message there. I just don't know 
what it is.
    Dr. Reis. So let me welcome you also. It is a very well-run 
committee, and we always get a lot out of these hearings, and 
working particularly with your staff. Let me start then. I will 
just summarize my testimony.
    Mr. Chairman, Mr. Visclosky, members of the subcommittee, 
the challenge of Stockpile Stewardship is to maintain the 
safety, reliability and performance of the current U.S. nuclear 
weapons indefinitely without underground nuclear explosive 
testing. This is indeed a major challenge. We are asked to 
maintain, forever, an incredibly complex device no larger than 
a desk, filled with exotic radioactive materials that must 
create, albeit briefly, temperatures and pressures only seen in 
nature at the center of stars, and do it without an integrating 
nuclear test and without any reduction in the extraordinarily 
high standards of safety and reliability, and, while you are at 
it, downsize the industrial complex that supports this 
enterprise by a factor of two, and stand up to critical new 
manufacturing processes.
    We must do this within an industrial system that was 
structured to turn over new designs every 15 years, and for 
which nuclear explosive testing was the major tool for 
demonstrating success. So we must meet this 
challenge,restructure the complex, and do most of it within the next 5 
to 10 years, while the current weapons are still within their design 
life and the designers and production folks are still active.

               Highlights Of Defense Programs' Activities

    Mr. Chairman, it has been over 10 years since new weapons 
production stopped and over 6 years since the last underground 
nuclear test, and I would claim we are meeting this challenge. 
This is a program that is working. Let me touch on just a few 
highlights.
    Most important, we have certified the stockpile as safe and 
reliable for 3 years running. The Stockpile Stewardship 
Management Plan, the so-called Green Book, is complete and will 
be on its way to Congress.
    The Department of Defense has completed a detailed review 
of four major stockpile programs: tritium production; the 
Accelerated Strategic Computing Initiative, ASCI; the National 
Ignition Facility; and plutonium production. That review was 
presented to the Nuclear Weapons Council, which endorsed its 
findings that each of these programs were effectively and 
prudently meeting its goals.
    Secretary Richardson has selected TVA's Watts Bar and 
Sequoyah light water reactors as the primary option for tritium 
production, with the accelerator as a backup, and we are in the 
final phases of negotiations with TVA.
    The National Ignition Facility, which is probably the 
world's largest scientific construction project, is 
approximately half complete and is on time and on budget. Pit 
production is on schedule to produce its first war reserve pit 
by 2001 and reach a capacity of 20 pits per year by 2007.
    The ASCI goal of producing simulations of real nuclear 
weapons phenomena by 2004 is on schedule.
    All three weapons labs are now working with the world's 
fastest computers, and our Kansas City plant has recently 
installed and is operating one of the most powerful computers 
in any manufacturing facility.
    The essence of Stockpile Stewardship is to be able to 
produce, certify and replace aging component parts on each and 
every weapon before they affect safety and reliability. We plan 
to produce some 1,300 limited life components in fiscal year 
1999, and we will deliver the first major Stockpile Life 
Extension Program output, the W87, to the Air Force this 
spring. We expect we will complete the dual revalidation of the 
Navy's W76 by the end of 1999.
    The final phase of the process to resume enriched uranium 
operations at our Y-12 plant will be complete in fiscal year 
1999. Kansas City has been qualified to produce tritium gas 
reservoirs, and Sandia will produce and deliver almost 300 
neutron generators in the year 2000.

                        Subcritical Experiments

    We executed the sixth highly successful subcritical 
experiment at the Nevada Test Site this February and plan on 
one more experiment this year and two or three more in fiscal 
year 2000. The experiments are critical in our understanding of 
the effects of plutonium aging and serve to maintain test 
readiness.
    Results from our other experimental facilities, LANSCE, Z-
pulsed power, PHERMEX, FXR, continue to provide important 
contributions to the stewardship program goals, and we plan on 
starting experiments on the DARHT by this summer, but there 
remains much to be done. The congressionally-mandated Chiles 
Commission has pointed out weaknesses in our programs to retain 
and attract critical personnel at both plants and labs as well 
as our Federal structure. We agree with these findings, and we 
will be installing corrective actions.
    While some projects like the National Ignition Facility and 
the Accelerator Production of Tritium are well-managed, not all 
are. We are engaged in a vigorous program to improve our 
performance and believe we have this issue under control.
    While I believe all parts of the program are in place, and 
the future is well mapped, we still need to devote particular 
effort to integrating what is an extraordinarily complex and 
challenging task, and we will do so.
    Mr. Chairman, I cannot finish this brief statement without 
mentioning the skill, effort and commitment of the close to 
25,000 men and women who are at our labs, plants and in the 
Federal structure, who are part of the Stockpile Stewardship 
Program. There is nothing more important than maintaining our 
nuclear weapon stockpile, and they are getting the job done.
    Thank you, Mr. Chairman.
    Mr. Packard. Thank you very much for that excellent 
statement.
    [The statement of Dr. Reis follows:]


[The official Commmittee record contains additional material here.]



                 Oral Statement of Rose E. Gottemoeller

    Mr. Packard. We will reserve questions until all the 
witnesses have testified. We will now hear from Ms. 
Gottemoeller.
    Ms. Gottemoeller. Thank you, Mr. Chairman. Mr. Visclosky, 
Members, I very much appreciate this opportunity to appear 
before the committee. It is my second opportunity only, so I 
don't quite have the track record of Dr. Reis, but it was, I 
can attest, a very useful hearing last year, and I do continue 
to appreciate the interaction with this committee and the 
staff.
    In my oral remarks, I would like to hit the highlights of 
my office's planned activities for fiscal year 2000. The 
President has identified weapons of mass destruction 
proliferation as a national emergency, and I am proud of the 
role that DOE and my office play in responding to that 
emergency.

                    Fiscal Year 2000 Budget Request

    Our total request for fiscal year 2000 is $747.3 million, 
representing an 11 percent increase over fiscal year 1999 
appropriations. This increase reflects the growing threat to 
U.S. security in both international and domestic arenas. Russia 
is at the top of our priority list.

              Material Protection, Control and Accounting

    Through our Material Protection, Control and Accounting 
Program, we are helping Russia to secure its nuclear weapons 
usable materials and reduce the risk that these materials will 
be diverted to build weapons in rogue states or by 
terroristorganizations. This has been a highly successful effort, which 
has expanded to include 55 facilities throughout the former Soviet 
Union.
    To date we have completed upgrades on 30 metric tons of 
material and have improved security of some 400 metric tons of 
material. We are working at virtually every site we know of 
that contains weapons-usable nuclear materials, including 
defense complex sites and civilian nuclear sites.
    We still have much work to do since we know that the 
Russians have [deleted] metric tons of nuclear materials not in 
weapons and in need of upgraded protection, but we have 
developed the goodwill and the structure needed to efficiently 
pursue the security of the remaining stocks of nuclear 
materials.
    For this effort in fiscal year 2000 we are requesting $145 
million. Our efforts in the area of Russian material security 
are made possible in large part because of my office's role in 
setting the international standards for the protection of 
nuclear materials and facilities here in the United States.

Initiatives For Proliferation Prevention, And Nuclear Cities Initiative

    I would now like to turn to the other side of the Russian 
proliferation problem, the brain drain.
    Our Initiatives for Proliferation Prevention and our newly-
launched Nuclear Cities Initiative are working to address the 
complex of issues in this area. I know that much has been 
written and said recently regarding these efforts, and I would 
like to just make the following comment: We have, through the 
Initiatives for Proliferation Prevention Program, successfully 
kept thousands, at last count over 6,100 former Soviet weapons 
experts at home and out of weapons work in rogue states, 
terrorist organizations and criminal organizations.
    As the General Accounting Office report recommended, we 
need to do a better job of ensuring more money gets to Russia. 
We also need to redouble our efforts to achieve commercial 
success with these projects. However, the GAO report also 
underscored that our overall goal of keeping these experts at 
home is succeeding.

                      International Nuclear Safety

    Elsewhere in our Russia-related activities, I am pleased to 
report that my office has successfully completed integrating 
the Department's Office of International Nuclear Safety into 
our structure. There is a natural synergy between the nuclear 
safety work and my office's more traditional missions.
    We are making excellent progress in improving the safety of 
Soviet-era reactors, including improved safety diagnosis and 
response training, pursuing the installation of safety 
equipment, and establishing regional nuclear safety training 
centers. Moreover, our efforts to aid in the closing of the 
Chernobyl complex continue.

                   Chemical And Biological Initiative

    While we work to counter threats abroad to our national 
security, we are stepping up our security efforts here at home. 
The threats to domestic safety and security are more diverse 
than ever, and at the direction of the President and Secretary 
Richardson, we are moving smartly to address these threats. The 
Department, through my office, is rapidly pursuing the 
President's call to improve our chemical and biological 
detection and identification capabilities. For our chem-bio 
initiative, we are requesting an increase from $19 to $32 
million in fiscal year 2000.
    The primary goal of these efforts is to provide first 
responders with portable, fast and accurate tools to detect and 
identify chemical and biological agents. With one anthrax hoax 
in the United States every day, the ability to detect hoaxes 
and, in the worst case, to confirm the use of chemical or 
biological agents is vital to reducing the effect of such 
events. Our investment in this area is leveraging the already 
strong expertise residing in the national laboratory system, 
especially those in the fields of chemistry and biology.

                        Research And Development

    In addition to our CBW detection work, other important 
technical advances are being pursued in our Research and 
Development program. The tools being developed through this 
office will improve our ability to detect proliferant 
activities in other countries and also increase our confidence 
in the verifiability of international arms control treaties and 
agreements, such as the Comprehensive Test Ban Treaty and the 
treaty to ban the production of weapons-usable nuclear 
materials, which is still under negotiation.

                           Domestic Security

    Our other domestic security missions are equally important 
and challenging. I took note a few moments ago of the fact that 
our efforts in the area of Russian material security are based 
in large part on the high standard that is set in our domestic 
DOE complex. We have set the international standards for the 
protection of nuclear materials and facilities, and they extend 
beneficially to our international program, but it is the work 
at home and the high standards that are maintained in the DOE 
complex that have made that possible.
    Our Office of Security Affairs also continues a vital role 
in protecting classified information. Once again, this has been 
another frequently discussed topic in recent months, and I 
would like to comment that our mission requires us to remain 
accountable to the American public. To do this we must 
effectively balance two equally important missions, to protect 
classified information to prevent others from using it to harm 
U.S. interests, and to only keep secret that information which 
needs to be protected.
    To meet these goals, the Department is working aggressively 
to review materials before they are released to ensure the 
absence of restricted or formerly restricted data, as Congress 
has required. At the same time, we are working to comply with 
President Clinton's Executive Order to declassify those 
documents that no longer require protection.

                          Emergency Management

    The last program I would like to mention is one that gets 
few headlines, but actually allows me and many of the DOE 
leadership to get some sleep at night. This is the Office of 
Emergency Management, which is also operated out of my office, 
Twenty-four hours a day, 7 days a week, 365 days a year, our 
emergency operations staff is ready to respond to any in a wide 
variety of possible events that would affect our national 
security and safety. More than that, throughout the year, the 
office is practicing, planning and preparing for how to react 
in case of an emergency, and they have prevented many by doing 
so.
    There are many additional programs in my office, and time 
does not allow me to make a complete listing of them, but I 
would be happy to answer any questions.
    Mr. Packard. Thank you very much.
    [The statement of Ms. Gottemoeller follows:]


[The official Commmittee record contains additional material here.]




                  Oral Statement of Laura S.H. Holgate

    Mr. Packard. Ms. Holgate, we are glad to have you with us. 
You can go ahead with your testimony, if you like.
    Ms. Holgate. Thank you very much, Mr. Chairman, Mr. 
Visclosky, and members of the Committee. I am pleased to appear 
before you today, and in my case this is my first time, in 
contrast to my experienced colleagues. I can also compliment 
the staff of the committee and the good work that we have done 
together.
    I will summarize my formal statement.
    The Office of Fissile Materials Disposition's principal 
focus is on disposing of inventories of surplus U.S. weapons-
usable plutonium and highly enriched uranium, as well as 
providing technical support for and ultimately implementation 
of administration efforts to obtain reciprocal disposition of 
surplus Russian plutonium. These disposition activities are 
part of the administration's overall strategy to reduce the 
threat from weapons of mass destruction.
    I believe that one of the most important things that can be 
done to improve American security in the coming years involves 
actions we take today to reduce Russia's immense stockpiles of 
nuclear weapons materials. That, Mr. Chairman and members of 
the committee, is our goal.

                    Fiscal Year 2000 Budget Request

    The fiscal year 2000 budget request for these activities is 
$200 million, an increase of $32.5 million over the fiscal year 
1999 comparable amount. The increase in fiscal year 2000will 
allow the Department to continue detailed design of the pit disassembly 
and conversion facility and the mixed oxide fuel fabrication facility, 
as well as begin design of the immobilization and processing facility--
key elements in the United States hybrid plutonium disposition strategy 
involving immobilization and burning mixed oxide fuel in existing 
domestic reactors. $160 million out of our fiscal year 2000 budget 
request is allocated for these elements required to dispose of 50 tons 
of excess U.S. plutonium.
    Proceeding with planned design, development and licensing 
is important because it strengthens the U.S. negotiating 
position and sends a strong message to the Russians that the 
United States is serious about reciprocal plutonium 
disposition. A decision to stop or significantly slow the 
design effort would result in demobilization of the disposition 
facility design team, loss of continuity and increased costs.
    The United States, however, will not begin construction of 
new facilities for disposition of U.S. plutonium unless there 
is significant progress on plans for plutonium disposition in 
Russia. This is necessary to avoid putting the United States at 
a strategic disadvantage in future negotiations with Russia, as 
well as to avoid the large-scale expenditure of funds until 
necessary.

             progress with russia on plutonium disposition

    With regard to progress with Russia on plutonium 
disposition, important foundations have been laid this past 
year. We are currently conducting tests and demonstrations of 
technologies needed to dispose of surplus materials in Russia. 
This work is needed to build trust and cooperation and will add 
to the technical knowledge base, confirm the viability of 
certain technologies, and demonstrate these technologies that 
might be employed for the disposition of surplus Russian 
plutonium.
    The program's fiscal year 2000 budget includes $25 million 
to implement this agreement and to carry out other activities 
in support of plutonium disposition in Russian as part of the 
President's Expanded Threat Reduction Initiative.
    At the Moscow summit in September of 1998, President 
Clinton and President Yeltsin signed a Joint Statement of 
Principles on Plutonium Disposition which committed the two 
countries to seek to conclude a bilateral plutonium disposition 
agreement, specifying the technological approach and schedules 
to be followed by each country, the types of facilities to be 
constructed in Russia, and commitments with respect to 
international support for these activities in Russia.
    Negotiations are under way, and initial conversations with 
Russian counterparts reveal significant commonality of vision 
on the content, structure and timing of this agreement. I 
believe an agreement on this can be reached this year to enable 
plutonium disposition to proceed in both countries.
    Once the agreement is in place, the United States and 
Russia would each proceed with parallel programs with 
comparable rates of disposition. In Russia this program will 
require the design, construction and operation of facilities to 
convert weapons and plutonium metal into oxide powder and to 
fabricate mixed oxide fuel, as well as to modify Russian 
reactors.

         fiscal year 1999 emergency supplemental appropriation

    The Department intends to assist Russia to implement this 
bilateral agreement initially through the emergency 
appropriation of $200 million provided in fiscal year 1999. 
This dramatic gesture has been instrumental in the Russians' 
current cooperative approach. This funding will be expended in 
the Russian Federation over a 2- to 3-year period following 
completion of the United States-Russian agreement. A detailed 
budget justification obligation plan will be submitted to 
Congress once the agreement has been concluded.
    $200 million will not cover the entire cost of implementing 
this agreement, however. Russia will need to contribute some 
resources, and the administration plans to seek support for 
this program from the international community, both the public 
and private sector.
    In closing, the Fissile Material Disposition Program has 
come a long way in building the domestic and international 
consensus necessary to begin disposing of surplus highly 
enriched uranium and plutonium. Now is the time for the United 
States to continue this important mission by sending a clear 
signal to the world community that we are intent on finishing 
the job. The modest investment needed to achieve these goals 
could save Washington many billions of dollars tomorrow in 
dealing with future nuclear threats.
    Thank you, sir.
    Mr. Packard. Thank you, Mrs. Holgate.
    [The statement of Ms. Holgate follows:]


[The official Commmittee record contains additional material here].


                            stockpile aging

    Mr. Packard. We appreciate the testimony of all three of 
our witnesses.
    I normally would probably turn the time to my colleagues 
for their questions first, but let me just ask, for the purpose 
of clarifying some of your statements, particularly in your 
written testimony, on two or three points, and then go to my 
colleagues.
    Dr. Reis, in your testimony you spoke of the aging 
mechanism in our stockpile of high explosives and that you 
discovered that actually the aging has beneficial effects. I 
would be interested in what those are, the aging mechanisms. 
The aging mechanism in a stockpile high explosive was 
identified through an evaluation and, ultimately, concluded 
that the changes actually improved the stability of the 
explosive.
    I would be interested in knowing what you discovered, and 
as a result, you have embarked on a novel strategy of 
accelerating the aging process of plutonium.
    Dr. Reis. The high explosive, you know, is a a very 
complicated combination of organic materials, plastics, high 
explosives, and the specific item that you are talking about--
let me get back to you. It is kind of a technical issue. We 
will fill you in on the specifics.

                            plutonium aging

    Mr. Packard. Particularly what you are doing to accelerate 
the aging process.
    Dr. Reis. The plutonium is an important issue. One of the 
things we are doing is to change the isotopic content of the 
plutonium itself. We are heating the plutonium and that way 
getting to what happens to it when plutonium ages. As it ages 
plutonium gives off alpha particles, which become helium, which 
then work its way into the intricacies of the plutonium 
structure itself, and it also tends to swell the plutonium. So 
what we are doing is looking at experiments with slightly 
different isotopic forms which will accelerate that process. 
Then we will test that in things like the subcritical 
experiments specifically, to determine whether that has any 
effect on the plutonium itself. Of course, part of that is to 
be able to predict what those effects are. So we will get a 
better handle on what that aging process is, and then determine 
particularly not what the aging process is, but what the 
effects of aging are on the performance of the plutonium 
operating as a primary.
    [The information follows:]

                          High Explosive Aging

    Our investigations have shown that the degradation of the 
most common high explosive in the stockpile is controlled by 
the moisture content in the material. As the material loses 
moisture the degradation is slowed. Our investigations have 
also shown that as weapons age, the amount of moisture in the 
high explosive is reduced by being pulled into the desiccant 
(moisture absorbing material in the weapon) or consumed by 
chemical reaction. Thus, as the high explosive ages it in 
effect becomes more stable.

                             dismantlement

    Mr. Packard. Also on page 7, you refer to dismantling 
results from the Nation's response to START I, and that is 
essentially going to be completed in 2001.
    How many strategic weapons do we have remaining, and how 
many have we dismantled?
    Dr. Reis. We have dismantled, both strategic and tactical 
now, over 11,000, I believe the number is. This program has 
been going on for some time.
    Mr. Packard. Is that the United States and Russia?
    Dr. Reis. That is the United States I don't think we know 
specifically the number of----
    Ms. Gottemoeller. We believe the rate is about [deleted] a 
year from Russia.
    Mr. Packard. When did we start?
    Ms. Gottemoeller. We started at the same time. The count 
started for the tactical and the strategic nuclear weapons in 
1990 in terms of our parallel unilateral commitments.

                             stockpile size

    Mr. Packard. [Deleted] in Russia as well.
    Ms. Gottemoeller. Yes.
    Dr. Reis. With the START I, which is what our current 
requirement is, we are actually getting towards completing just 
about all of the weapons dismantlements we will have.
    [Deleted.]
    Mr. Packard. START I, II and III, what would be our level?
    Dr. Reis. START II, the number of active strategic weapons, 
goes down to about 3,500. Yet the number in the reserve force 
that we are responsible to keep up is approximately the same 
number. So it would not have to be in the same ready state, but 
in terms of maintaining the spares, we still have approximately 
the same workload, whether it be at START I or START II.
    Which respect to START III, I would like to turn that 
perhaps over to Ms. Gottemoeller, who is actively involved in 
the interagency proceed to get that number.
    Ms. Gottemoeller. Sir, our proposal which flows from the 
Helsinki statement between Clinton and Yeltsin of May 1997 
calls for the two sides to go to a number of between 2,000 and 
2,500 in START III. That is our proposal to the Russian side 
for beginning the negotiations.

                            warhead storage

    Mr. Packard. Where do we store our active stockpile, mostly 
at our labs?
    Dr. Reis. The active and inactive stockpile--is kept by the 
military and would be at the various Air Force bases--
[deleted]. That is where the stockpile is. There will also be 
few there that will be coming back for refurbishment.
    [Deleted.]

              material protection, control and accounting

    Mr. Packard. Thank you. In your testimony, Ms. 
Gottemoeller, you mentioned that we have secured Russian 
agreement to cooperate on more than two dozen facilities that 
we didn't even know existed when the program began. Do you 
suspect that there are other sites or facilities that we don't 
know about?
    Ms. Gottemoeller. Sir, we have a much better picture now 
than we did when we began, because we have had teams on the 
ground now on the MPC&A program since 1994, and the teams have 
gained greater trust and overall openness from their Russian 
colleagues. So we are finding now that the Russians are 
essentially throwing open the doors to new sites and new 
facilities.
    We are now working at 55 sites in the former Soviet Union. 
There may be a few more sites that emerge, but we believe we 
have the major sites now in both the weapons complex and in the 
civilian nuclear reactor complex as well.
    Where the new material is being discovered mainly is in 
additional buildings within sites. For example, back before 
Christmas we had a team a Krasnyarsk 26, and they wereinvited 
by their Russian colleagues to go and look for the first time at a new 
building. They opened the door of the building, and there were tons of 
additional nuclear material in the building. They had been in the site 
before, and they never were allowed to look at that particular 
building. The Russians asked them about building a fence around that 
building. It is a situation where because of the good working 
relationships, we are finding more material.
    In terms of the total number of sites, we have a pretty 
good handle on that now, but within those sites we will be 
finding more buildings.
    Mr. Packard. Thank you. We will turn to Mr. Visclosky now.

                      foreign visitors to the labs

    Mr. Visclosky. Thank you, Mr. Chairman.
    Dr. Reis, on November 18th, Ms. Pelosi and I wrote a letter 
to the Secretary asking for a list of visitors to your 
installations. That was 4 months ago today, and we have not 
received a written acknowledgment that we even made the 
request, let alone that we have received the information we 
have asked for. I would like to ask you when are we going to 
get a response?
    Dr. Reis. Mr. Visclosky, I was unaware that you even wrote 
that letter. It did not come to my office. I will get right 
back on that and check with my mail room, I will check with the 
Department's mail room to give you that answer.
    Mr. Visclosky. You were not aware that this letter was sent 
until this morning?
    Dr. Reis. No, sir.
    Mr. Visclosky. You didn't know until this moment that I 
ever made that request?
    Dr. Reis. I was told just briefly prior to my coming here 
that that was a concern of yours.
    Mr. Visclosky. So it would be your testimony today that the 
Secretary--no one from the Secretary's office, contacted you or 
anyone at the lab to fill the request of Ms. Pelosi and I?
    Dr. Reis. My testimony is nobody in the Secretary's office 
contacted me.

                             lab oversight

    Mr. Visclosky. You are in charge of Los Alamos, right?
    Dr. Reis. I am in charge of some of Los Alamos.
    Mr. Visclosky. What aren't you in charge of at Los Alamos?
    Dr. Reis. There are a number of programs that have to do 
with energy research, that have to do with nonproliferation. It 
is a multiprogram laboratory. I have sort of, quote, the 
landlord responsibilities in terms of the roads and all the 
things like that.
    Mr. Visclosky. Are you in charge at Sandia?
    Dr. Reis. In that same mode, yes, sir.
    Mr. Visclosky. And Lawrence Livermore?
    Dr. Reis. That is correct. Again, Defense Programs funds 
approximately 50 percent of the work at each of those 
laboratories.
    Mr. Visclosky. So you are only in charge of half of those 
laboratories?
    Dr. Reis. Again, I have, quote, the landlord 
responsibility. If there is anything wrong with the roads or 
that sort of thing, regardless of who does it----

                      foreign visitors to the labs

    Mr. Visclosky. I don't mean to be argumentative, but I have 
had a lot of conversations with you. You impress me as being a 
very bright individual, a very responsible individual, and 
someone who runs those three labs very well.
    Dr. Reis. Let me tell you, Mr. Visclosky, I am going to 
look up--as soon as I get out here, I am going to find out what 
happened to your letter, and I will follow up on that right 
away, but I must tell you, I did not know about that. I did not 
know that you had sent that letter to the Secretary.
    Mr. Visclosky. Ms. Gottemoeller, do you know about my 
request?
    Ms. Gottemoeller. Yes, sir, I do know about your request.
    Mr. Visclosky.  When did you find out about the request?
    Ms. Gottemoeller. I received your letter back when it was 
sent to the Department. I saw a copy of it, and we, in my 
office, did do some work on responding to the letter and sent 
it forward for coordination.
    I also checked on your request this morning. It is 
currently in the front office for coordination, and you should 
be receiving a response very soon.
    Mr. Visclosky. Which front office?
    Ms. Gottemoeller. That would be the Office of Congressional 
Affairs. That is the overall office of the Secretary, but it 
includes the Office of Congressional Affairs and the other 
administrative--main administrative offices of the Department.
    Mr. Visclosky. And so you were made aware of the request?
    Ms. Gottemoeller. Yes, certainly, sir. My staff was working 
on helping to fulfill the request. It has gone forward in the 
coordination process at this point.
    Mr. Visclosky. Do you know who else in the Department knew 
about the request then, besides yourself and your office?
    Ms. Gottemoeller. Sir, I am afraid I don't know the full 
list of offices that coordinated on the letter, but as is the 
normal course with letters that come to us from Members of 
Congress, I am sure it was widely coordinated. I just don't 
have the information as to which offices exactly.
    Mr. Visclosky. And, Dr. Reis, I believe you when you tell 
me you will get back to me.
    Dr. Reis. Yes, sir.
    Mr. Visclosky. But let me tell you, people at the 
Department of Energy have been telling Congresswoman Pelosi, 
and they have been telling me, and they have been telling my 
staff, we are going to get back to you, and there is not so 
much as a written acknowledgement that that letter is there, 
and that is 4 months, and I am very angry about this.
    Thank you. Mr. Chairman.
    Mr. Packard. Thank you very much, Mr. Visclosky. Mr. 
Knollenberg.

                           year 2000 problem

    Mr. Knollenberg. Thank you very much, Mr. Chariman.
    Welcome, Dr. Reis, Ms. Gottemoeller, and Ms. Holgate.
    Let me turn to the Y2K problem. I believe that might be one 
I can direct at you, Ms. Gottemoeller.
    Ms. Gottemoeller. Yes, sir.
    Mr. Knollenberg. You know all about the attention it is 
getting. We don't have to talk about that. But with respect to 
some specifics here and to the possible breakdown and 
malfunction in the early warning nuclear systems between the 
United States and the former Soviet Union, I would like to talk 
about the action that is being taken on these issues.
    Now, I am looking at some of the reports that have come 
out. The CIA is predicting a Y2K problem abroad. Others are 
saying that the Y2K problem really is kind of a piece of 
cake,that the real problem is the hackers, and that may be a question 
for Dr. Reis as well. But it does present some new challenges, I think.
    It is my understanding that the Russian military was 
adamant that their weapons or weapons systems would not be 
affected by the Y2K problem, but more recently I have heard 
that Russia, the Russian officials, have sought help from the 
West, from us, to deal with this issue. As I say, I have read 
many articles criticizing the computer systems and the problems 
that may occur here.
    Is the United States military and the Russian military 
prepared to deal specifically with possible breakdowns in 
communications which are caused by the Y2K problem, and what 
precautions are we taking?
    I have heard also that to avoid some problems, there is 
going to be a meeting of the United States and Russian folks 
sometime later this year in advance on the year 2000, just to 
be on the same page with respect to any kind of potential 
breakdown.
    So if you would comment as best you can about where we are?
    Ms. Gottemoeller. Certainly, Mr. Knollenberg. I may say 
that the lead on the issues to do with the Ministry of Defense, 
the strategic nuclear forces, for example, is held by the 
Department of Defense. I will be happy to comment in general 
terms based on my participation in interagency discussions 
where they have talked about their overall work on the early 
warning cooperation with Russia and the Y2K issues. However, I 
am not, nor is DOE, the lead organization on those particular 
issues. I would like, therefore, to talk also a bit about the 
issues where we do have the lead, and that is on nuclear 
reactor safety, if I may.
    You are quite right to point to the fact that for a long 
time the Russian military and indeed the reactor, nuclear 
reactor community, did not really take the Y2K problem that 
seriously. They said we can either fix this problem, or it is 
not anything that is too serious from our point of view.
    But due to, I believe, some very important interactions in 
recent months, they have begun to ask us for input and advice 
as to how to proceed. I know in the case of the DOD work that 
they have now come to the point where they have got an 
agreement to cooperate in the early warning arena, and that 
will involve--in the period from December 1999 through January 
2000, that will involve very close cooperation between the 
United States and Russian militaries to ensure that there is 
collaboration and cooperation on exchange of early warning 
data.
    So there are some very concrete steps being taken, and I 
would certainly refer you to the DOD, because they have, I 
think, a very good story to tell on the work they are doing in 
that regard.
    With the case of the nuclear reactors, from the Chernobyl 
type to the VVR-1000s and the other Soviet-built reactors, 
again, here was a case where the concerns were just not there 
until several months ago when, in cooperation with the IAEA, 
the Department of Energy began holding a series of 
informational exchanges and seminars with the Russian reactor 
operators and the utilities in Russia where nuclear energy is 
fed into the overall electricity grid, and they became aware of 
some specific concerns having to do with the supply of 
electricity----
    Mr. Knollenberg. You are still talking about Russia 
specifically. There is a limited amount of time. One of the 
things I want to have you talk about, too, is Iraq and Iran. 
Russia specific now, but I just want to be sure you are still 
on the Russian area.
    Ms. Gottemoeller. I am still on the Russian area. I will 
say very quickly we have become, I would say, gratified in some 
sense because the Russian specialists have now become focused 
on the fact that they do have a Y2K problem with regard to the 
operation of their nuclear reactors, and they are very, very 
ready to work with us and gain our experience and try to 
address some of these questions in the remaining months of 
1999.
    Sir, with regard to Iran and Iraq and the Y2K questions 
that are associated----
    Mr. Knollenberg. And throw in North Korea.
    Ms. Gottemoeller. North Korea as well--I am afraid I will 
have to take that question for the record, because I simply 
have not looked into it.
    Mr. Knollenberg. I would like to have you do that, 
particularly with respect on the Y2K problem on those in 
question.
    [The information follows:]
                   Y2K--Impact on Proliferant Nations
    [Deleted.]

                       nonproliferation concerns

    Mr. Knollenberg. The only thing I would like to add to 
that----
    Mr. Packard. I was going to ask, if you are going to leave 
Y2K, I would ask you to permit me to enlarge on your question.
    Mr. Knollenberg. I am going to ask one more question, and 
will be glad to. With respect to nonproliferation concerns, and 
obviously much of this is information that we can't talk about 
here, but there are huge concerns with respect to 
proliferation. I know that I would like to have time to talk to 
Ms. Holgate, and I will later, and Dr. Reis as well, on what is 
happening. But we don't seem to have a grip, at least from 
within the framework of the knowledge that we have, as to just 
what security we do have about Y2K.
    Now, some of this information is helpful that you have been 
talking about, but these security systems around the globe, 
what would be your best assessment of the reliability of those 
systems that apply to the countries in question just generally, 
or go beyond that ring of rogue nations, excluding Russia from 
that loop, Russia, those rogue nations and other countries, 
with respect to security problems around the globe? If you can 
answer that maybe as briefly as you can, I would appreciate it.
    Ms. Gottemoeller. Well, sir, we regard, as I mentioned in 
my opening remarks, the problems of proliferation aroundthe 
world as extraordinary serious and have been pointed to by President 
Clinton as one of the main security issues that we really have to 
grapple with today. So if I may use two words, they are extraordinarily 
serious.
    Mr. Packard. I just wanted to ask if the supercomputers, 
and particularly the newer ones, are they already addressing 
the Y2K problem, or do they present special concerns or special 
requirements?
    Ms. Gottemoeller. Mr. Chairman, is that with regard to 
Russia specifically or in general?
    Mr. Packard. No, just in general, the supercomputers that 
we use in many of our programs for testing and weapons.
    Dr. Reis. Perhaps I could do that. Let me even get back to 
an earlier part of Mr. Knollenberg's question in terms of the 
nuclear warheads, our nuclear warheads and the systems that go 
with them. We have reviewed this in depth, and they have all 
passed with flying colors. So for each of our own nuclear 
warheads, both hardware and software and all things that go 
with that. That was the most critical thing we looked at.
    In addition, there were some 93 other systems that were 
both administrative and programmatic that were identified as 
mission essential. We have verified that all but four of them 
are Y2K-compliant. The four that are left will be Y2K-
compliant, and they are administrative systems. In particular 
what I remember, the Sandia pay system was critical. That is 
one of the systems that has not yet been done.
    Very specifically, Mr. Packard, getting back to your 
question, we are very sensitive to the concerns about Y2K and 
the supercomputer systems. They are new systems, so we build 
that in before we have ever had any problems.
    Mr. Packard. Thank you. Mr. Latham, and then we will go to 
Mr. Edwards.

                             pit production

    Mr. Latham. Thank you very much, Mr. Chairman.
    Ms. Holgate, according to the GAO, the Department lacks the 
capability to produce the pit, the nuclear weapons component 
for the stockpile, and needs to have enhanced capabilities. I 
think there is a request for that. But in your written 
testimony it states a need to dispose of these pits.
    I guess I am getting a conflicting message here. In one 
case you need to produce more, but in the other case you are 
trying to dispose of it. Could you clarify that for me?
    Ms. Holgate. I think that is a question that Dr. Reis and I 
need to share. I will let him take the first half.
    Dr. Reis. What we are concerned about in terms of producing 
pits are the pits for the enduring stockpile, those that we 
expect to have in the future. We don't know yet how long those 
plutonium pits are going to last. Indeed, much of our 
experimental program has helped to define that. But we do know 
we are going to need more of those for the weapons in our 
current stockpile.
    Those that are no longer in our stockpile, since we have 
gone through a significant reduction, are now excess, and you 
can't just take the old pit and use it. In most cases you can't 
use the old pit; it won't fit into the current weapon 
stockpile. So we have to dispose of those. That is where they 
have been declared excess. Those are the ones that Ms. 
Holgate's material disposition organization is going to get.
    The reason we don't have a production capability now is 
that the Rocky Flats complex in Colorado stopped producing pits 
and, is being shut down. So we have to reestablish a production 
capability itself.
    Part of the reason we need to have this new manufacturing 
capability is that every year we take apart 11 warheads from 
the stockpile that we have, we take them completely apart, we 
examine them, we do the surveillance, we see if any parts of 
those need to be fixed. One of those 11, gets completely 
destroyed as part of that process, including the pit, where we 
take it apart, we cut it, we look at it with all sorts of 
diagnostics, X-ray instruments and so forth and determine its 
characteristics.
    For much of the stockpile, we have built spares. For some 
parts of the stockpile we did not build enough spares. So our 
pit production capability that we are building up, is to 
provide those spares, and then also as we progress in time, we 
know we will be running out of the pits themselves. So that is 
where that number comes from, and that, I believe, is what the 
GAO was concerned about.
    Ms. Holgate. If I could just add to that, sir, of the 50 
tons of plutonium that has been declared excess, roughly half 
of that is in pit form. The other half is in various metals, 
oxides, other forms created in the course of operating the 
weapons complex. Not only are these pits the pits that Dr. Reis 
in his Defense Programs doesn't need, there is a significant 
amount of material not in pits that is part of the disposition 
mission.

                    demographic problems/skills gap

    Mr. Latham. Okay. You can see where there would seem to be 
two different messages there.
    Just one more question. A large number of nuclear weapons 
experts are nearing retirement age, I would note for this young 
panel here. But what is the Department doing as far as 
replacing those people, or do we kind of have the same problem 
as the Library of Congress right now, where there is a whole 
generation that is going to be leaving shortly and losing a lot 
of expertise? What are you doing to address that?
    Dr. Reis. Mr. Latham, you bring out a point that the Chiles 
Commission, which has recently presented its report to Congress 
looked at the very same issue--and we recognize that there is a 
problem in this, and we have not developed the effective 
programs, both at the plants and the laboratories, to, you 
know, produce that, to replace those people.
    Part of the concerns we have had, of course, is that we 
have been really developing this program over the past few 
years. Up until, you know, 1992, there was, you know, a much 
larger, you know, continuing production mission. There was 
nuclear testing. All of a sudden the world changed on us, and 
the type of skills we need, the type of people we need to have 
those skills, we know they are running out.
    We have initiated at the laboratories very specific 
education and mentoring programs. We have initiated programs to 
archive the people who, you know, have that information, so 
they get that information on videotape. We are doing similar 
activities throughout the plants. But, frankly, we have not 
done that in a broad enough and systematic way. We are going to 
be starting to do those procedures very soon.
    It is simply a question of what do you do first, and the 
first thing we have to do is get the program in place, with the 
people we have in place. Now we know that will not last, and we 
are going to have aggressive recruiting programsin our 
universities as well. We have gotten support for that from the 
Secretary. He has been with the Chiles Commission and is going to give 
us the support to make that happen.
    Mr. Packard. Mr Edwards.

    fiscal year 1999 emergency supplemental appropriation rescission

    Mr. Edwards. Mr. Chairman, let me first apologize for being 
late. When this committee hearing had to be changed timewise 
because of another hearing on the House floor, its change threw 
me off, and I couldn't cancel an appointment.
    The questions I want to ask are probably as important to me 
as any that I will ask anyone this year. I think I should 
direct this initially to you, Ms. Holgate, if I could. It is in 
regard to the full committee's recommendation last week to 
rescind $150 million of the $525 million that is dedicated for 
working with Russia and the former Soviet Union about dealing 
with the disposition of fissile material. Are these two 
different negotiations, or at least the programs under your 
jurisdiction?
    Ms. Holgate. Only one of the two is under my jurisdiction, 
the one on plutonium disposition.
    Mr. Edwards. That allows me to be even more direct. I 
assume with the signing possibly this week between the Vice 
President and Prime Minister Primakov, that the $325 million 
will have to be used for that. We can't have him show up in 
Washington, DC, and we rescind in the same week or the week 
thereafter money that has been negotiated as part of an 
agreement that has already been signed or about to be signed.
    So what that really means is $150 million of the $200 
million for the plutonium disposition program, 75 percent of 
that money, would be rescinded if we don't make a change on the 
floor of the House or in the conference committee.
    I want to just get honest answers as to how serious of a 
threat it is. So let me ask a couple of pointed direct 
questions, and then you might want to talk more generally about 
it.
    How many tons of plutonium are we potentially talking about 
getting control of in the plutonium negotiations that are 
ongoing?
    Ms. Holgate. The Presidents have committed for each country 
to dispose of 50 tons of plutonium.
    Mr. Edwards. How many bombs could you potentially make with 
50 tons of plutonium?
    Ms. Holgate. [Deleted.]
    Mr. Edwards. [Deleted.] Even if 1 percent of that 50 tons 
leaked out someplace, you could make a number of bombs with 
that.
    Ms. Holgate. That is correct, sir.

           negotiations with russia on plutonium disposition

    Mr. Edwards. So it underscores the importance of this issue 
and how we need to be sure we are not 95 percent right. We need 
to either be 100 percent right on this rescission, or we need 
to try to find some monies from somewhere else to pay for this 
supplemental.
    Are we in negotiations with the Russians right now on the 
plutonium disposition?
    Ms. Holgate. Yes, sir, we are in negotiations right now. We 
have just today sent a draft text to Russia and hope to meet 
with them on that in early April.
    Mr. Edwards. So while normally it would make absolute sense 
that we have to find money to pay for a supplemental to take it 
from funds that can't be spent technically within a fiscal 
year, and I think that would be a normal reaction, to look for 
funds that can't be spent, in this particular case, where they 
are not literally handed to the Russians perhaps before October 
1st, in these ongoing negotiations, that $200 million is a big 
carrot on the table that I assume you are using to try to get 
concessions from them; is that correct?
    Ms. Holgate. That is absolutely the case, sir.
    Mr. Edwards. What kind of concessions are you trying to get 
from them? In what way might those concessions be important to 
the United States? Why is it important we be successful in 
getting those concessions?
    Ms. Holgate. The first goal that we had hoped that that 
funding would accomplish, and what was behind the motivation 
for applying that money, was to get the Russians to the 
negotiating table in the first place. It had an almost 
instantaneous effect. The money was appropriated in October, 
and we had very serious, excellent discussions in October on 
that activity.
    Mr. Edwards. What is your opinion, recognizing that the 
Russian participants in these negotiations may not totally 
trust the United States Congress, they may not understand our 
appropriations and supplemental appropriations process, what is 
your most honest guess as to how they might respond to our next 
week having the U.S. House vote to take 75 percent of the money 
off the table that you bring them to the table?
    Ms. Holgate. I think it is entirely possible they will 
cease negotiations with us on that, sir.
    Mr. Edwards. Are there other programs, Ms. Gottemoeller--
maybe you would want to comment here--are there other potential 
ongoing discussions on other proliferation programs that are 
important to the United States, that this sort of taking the 
money away during the middle of negotiations might potentially 
affect? Any other ongoing operations, any other countries 
involved in these negotiations where this could have even a 
broader effect than the terribly important question of what are 
we going to do with 50 tons of bomb-grade material in Russia? 
Any other programs it might affect?
    Ms. Holgate. I think across the board, in part because of 
our legal structure and Antideficiency Act, there are a number 
of interactions that the U.S. Government has with Russia where 
we appropriate funds annually, but we are counting on them to 
sign up to multiyear commitments, and the cooperative threat 
reduction program in the Defense Department is one key element. 
I won't speak for Rose. There may be aspects in her area that 
may risk that overall trust that has developed over the years 
because of the relative dependability of U.S. funding.
    Ms. Gottemoeller. Mr. Edwards, we actually do have some 
active negotiations going on now with regard to a government-
to-government agreement covering our Material Protection, 
Control and Accounting Program, and it is that very negotiation 
that I would point to as an example of one that might be 
affected by such a negative development.
    Mr. Edwards. Okay. My final question in respect to the 
Chairman being gracious to me on letting me ask these questions 
over this period of time--I will have other questions, and if I 
have to, I will submit them in writing--if we are successful in 
this plutonium disposition negotiation, what will happen to 
that 50 tons of plutonium? Where will it go?
    Ms. Holgate. It will be transformed into spent nuclear fuel 
in the Russian case, and in the United States into a 
combination of spent nuclear fuel and plutonium high-
levelwaste. Both of those forms render this fuel unattractive and 
inaccessible for reuse in nuclear weapons.
    Mr. Edwards. In effect, 50 tons that could potentially 
create [deleted] nuclear weapons, whether it is on an ICBM or 
whether it is in a suitcase that could be dropped off in 
downtown Manhattan or the back of a pickup truck, 50 tons would 
be taken off--in effect off the market, 1 percent of which or 
10 percent or who knows what percent of it could potentially be 
stolen. I am not saying what the odds would be, but the fact 
is, there is always that threat that it could be stolen, it 
could be gotten and put in the hands of people who have a lot 
of money to pay for it, much the same kind of concerns we have 
and the same reason we are spending other dollars dealing with 
proliferation questions in the former Soviet Union, that would 
in effect take those 50 tons out of the marketplace; is the 
correct?
    Ms. Holgate. That is correct, sir.
    Mr. Edwards. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Packard. Mr. Frelinghuysen.

              Material Protection, Control and Accounting

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I just have to 
say for the record, I don't want to engage in any colloquy with 
my colleague, but I think many of us--some of us have a 
different view of how we can trust--how far we can trust 
Russia, and I am not sure that we all share the same view. But 
I think it is important that we engage and continue to work 
with the Russians. So my questions will sort of somewhat 
parallel. I am not going to get into the money issue, but I am 
confident there is enough flexibility in the dollars that are 
available to protect our interests.
    I do somewhat come from the same school that we ignore 
Russia at our own risk. It is a massive piece of territory, and 
there are a lot of things that have gone on there historically 
that we rightly should be concerned about.
    I would like to actually ask relative to some of your 
testimony some more specifics relative to Mrs. Gottemoeller's 
testimony. It says here in your introductory remarks, in 
Russia, DOE employees and laboratory experts are on the ground 
and actively working to improve security of hundreds of tons of 
plutonium and highly enriched uranium in a dozen facilities.
    Have we identified all the plutonium?
    Ms. Gottemoeller. Sir, we have a very good idea of all the 
sites where the plutonium and highly enriched uranium are 
stored. We have a figure that we work with [Deleted] metric 
tons of both plutonium and highly enriched uranium. Ms. Holgate 
may wish to comment further on the total amounts of plutonium 
within that.
    I will say that, thanks to the ground work that I referred 
to earlier, our specialists and teams who are working on the 
ground are beginning to come to conclusions with regard to the 
total amount of material being perhaps as much as 30 percent 
higher than the--metric tons [Deleted.] So we are learning, as 
I said earlier, of new places, new buildings where material is 
residing, and so our numbers, our estimates of the total 
amount, is growing.

                              IPP and NCI

    Mr. Frelinghuysen. In your statement you say you are 
working with thousands of former Soviet weapons scientists to 
provide them with nonweapons jobs and prevent them from 
straying into other lines of work. How many are there?
    Ms. Gottemoeller. As far as the total numbers?
    Mr. Frelinghuysen. Yes.
    Ms. Gottemoeller. We work with a number of scientists in 
the range of 70,000 overall, and that includes chemical and 
biological.
    Mr. Frelinghuysen. We are working with how many, 5,000 or 
something?
    Ms. Gottemoeller. We are working--exactly at the present 
time, in the IPP program, we have had a total of approximately 
6,100 scientists actively engaged over the years. At the 
present time, there are approximately 3,000 scientists in the 
IPP program working actively on projects.
    Mr. Frelinghuysen. What about reports that as we develop 
this wonderful trust relationship with the Russians, they are 
off developing new weapons systems in a variety of different 
sites around the country that we don't have any access to? Does 
it give you a degree of discomfort?
    Ms. Gottemoeller. Sir, I actually feel our transparency has 
improved immeasurably in the years since the end of the Cold 
War because we have been able to have such good access to 
nuclear laboratories, nuclear complex facilities, and day-in/
day-out interactions with the nuclear weapons scientists.
    Mr. Frelinghuysen. So this all goes on, even though most 
people who know about Russia appear to say that we are sort of 
in a state of disassembly over there?
    Ms. Gottemoeller. Well, there is obviously economic chaos; 
there is a crisis overall in the country as a whole. However, I 
do feel that in terms of the relationship between the 
Department of Energy and its laboratories and the Ministry of 
Atomic Energy and the nuclear complex in Russia, the 
relationship is working, because we see the results every day 
in the facilities work we are able to do and in the contracts 
we are able to write for scientists to go to work on joint 
projects. So we see results.
    Mr. Frelinghuysen. But it is not that many scientists.
    Ms. Gottemoeller. Well, the numbers in the IPP program 
belie the total number of people engaged, because we also work 
quite extensively in the Material Protection, Control and 
Accounting Program with Russians at the sites. So there is 
quite an extensive interweaving of our lab people and the lab 
people on the Russian side as well. So there are quite a few 
people working on joint projects.
    Mr. Frelinghuysen. Will you talk a little bit more about 
the insider threat of nuclear materials diversion? We have our 
own sort of stateside insider threat, and I must say it has 
shaken public confidence in a way, I may say, that has, I 
think, focused more attention on our national labs than perhaps 
they have ever had before. Maybe that is for the public good, I 
don't know. I guess that is for another day.
    Ms. Gottemoeller. Certainly, sir. The insider threat has 
jumped sharply on to the scene since the economic collapse in 
August. There were several highly visible events that took 
place, including a sergeant in the guards at the Mayak facility 
in the Ural Mountains who shot and killed two of his colleagues 
and then ran away.
    These types of highly visible events, including the event 
with the submarine crew up in the northern fleet area where 
there was a hostage-taking, also caught the attention of the 
Russian public and the Russian Government. So for the first 
time, we are seeing our Russian counterparts clearly 
acknowledging an insider threat, and it is attached to the 
overall economic collapse.
    Mr. Frelinghuysen. If this is a barter economy, I can't 
imagine anything more powerful to barter with than these 
typesof materials.
    Ms. Gottemoeller. Indeed, sir, that is the grave concern we 
are hearing expressed very clearly now and for the first time 
by our Russian interlocutors.
    Mr. Frelinghuysen. You have emphasized in your comments 
here that the issue is larger in your own words than had been 
appreciated in 1994, and then in the next paragraph, the job of 
securing nuclear materials is ``a much harder and larger 
endeavor than anyone ever thought.'' I assume that is 
absolutely accurate?
    Ms. Gottemoeller. Yes, sir. Indeed, sir.

                         second-line-of-defense

    Mr. Frelinghuysen. The issue of borders, the last question, 
I think it is all great to have a checkout system at the 
airport here, but we are talking about borders that are 
thousands of miles long. With all due respect, this may be 
representing some impediment, but the percentage of materials 
that potentially could get through I think would be fairly 
high.
    Ms. Gottemoeller. If I may say a few words about the Second 
Line of Defense Program, this program is a partner to what we 
call our first line of defense. That is the Material 
Protection, Control and Accounting Program where we are 
building fences around actual nuclear facilities. In the Second 
Line of Defense Program, we work with the Russian Customs 
Service to put nuclear detection devices into high-risk border 
crossing points. You are quite right, sir, that there are 
hundreds of potential sites.
    Mr. Frelinghuysen. If these border guards are paid $1.50 an 
hour, all they would have to do is sort of grease their palms.
    Ms. Gottemoeller. We recognize it, and so does the Russian 
Customs Service, as a very, very serious problem. What we are 
trying to do is both provide them this kind of detection 
capability for high-risk sites, but also work with them very, 
very extensively on guard force training and improvement of 
technical skills overall. So there is a hardware aspect to 
this, but there is also an important human aspect to the work 
we do with them.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Packard. Mr. Rogers, please.

                          security at the labs

    Mr. Rogers. Thank you, Mr. Chairman, I know, Mr. Chairman, 
that you are reserving next week a day for dealing with the 
laboratory investigation, but I wonder if I could deal in the 
general sense with security at the labs today. I will keep it 
general and save the details of the investigation for the 
hearing next week or the conversation next week.
    Dr. Reis, yesterday in another subcommittee that I chair on 
funding the Justice Department, we had Director Freeh testify 
at length, and he talked about the culture within the lab 
community as perhaps contributing to the lack of security or 
the degraded security, that--I am paraphrasing--that there has 
always been a sort of, my word, lackadaisical attitude toward 
security of the weapons systems, and that that continues.
    Tell us about the general idea of security at the labs and 
of our own stockpile; particularly the labs.
    Dr. Reis. As I mentioned to Congressman Visclosky earlier, 
those tend to be multipurpose laboratories, and as part of 
multipurpose, they do a good deal of other things besides 
nuclear weapons. They start out as nuclear weapons 
laboratories, as you know, and Los Alamos, that is all it was 
doing. As they grew in time, the missions that they took on 
essentially grew, and indeed much of the work they do there is 
unclassified and does involve a broad interaction with the 
international community.
    It has been my experience, though, within the weapons 
complex itself, within the boundaries, those people who are 
working on the nuclear weapons in terms of the design itself, 
they are highly patriotic and highly sensitive to what their 
missions are; that, however, you have to continue to reinforce 
that. This evening under Secretary Moniz and I and the people 
from counterintelligence and security, will be visiting Los 
Alamos and spend the day with them tomorrow to reinforce the 
need to do that.
    There is also a tension, if you will, in any scientific 
endeavor to interface with scientists around the world. That is 
the nature of the scientific system, and at the same time 
maintaining secrecy as well. That is not something you can let 
go by yourself. You have to continually work at it. You have to 
force it the same way you have to deal with safety first. You 
have to always think about those problems and basically always 
think about security problems. It is part of our 
responsibility.
    It certainly is part of my responsibility as well to ensure 
that they continue to understand what their responsibilities 
are. We talked about guns and gates and all those things. 
Ultimately it depends upon the individuals themselves to 
maintain that type of vigilance. It isn't a question of--again, 
it is a personal responsibility that you have to think of 
basically all the time. As we sit here, we have that same 
responsibility.
    Mr. Rogers. Sometimes it is easy to take our jobs for 
granted and not realize the cataclysmic, catastrophic results 
that can take place when we are dealing with secrets of this 
magnitude, and this W88 warhead loss demonstrates that as 
dramatically as anything could. This would enable--assumedly 
enable China to rain down nuclear terror on this country, when 
before they could not do so.
    The FBI, according to Director Freeh, in April of 1997 made 
a great list of recommendations to DOE to improve security at 
the weapons labs. What were those recommendations?
    Dr. Reis. I think I am not specifically privy to the 
details of those recommendations. I believe Mr. Packard 
suggested you were going to go into that in some detail----
    Mr. Packard. It probably would be more appropriate for our 
next meeting.
    Dr. Reis. I am sure those would be available to you. I 
didn't bring those specific recommendations along with me.

                      security policy at the labs

    Mr. Rogers. Who is in charge of security?
    Dr. Reis. The security policy is generated by the folks in 
the Nonproliferation and National Security Office. They 
generate the policies. We are responsible in the program office 
for maintaining those policies in terms of operating them.
    Mr. Rogers. So you are in charge of securing the labs.
    Dr. Reis. That is correct.
    Mr. Rogers. And you don't know what the recommendations of 
the FBI to improve the security of the labs is? You are the man 
in charge?
    Dr. Reis. You are asking me for a specific list from the 
FBI, specific data in 1997 when those were propagated down. In 
terms of visitor control, I am certainly aware of what the 
visitor control efforts were. I am aware of what the concerns 
about cybersecurity are. I amaware, though, of clearly the 
efforts we are doing to maintain those, to ensure ourselves that we are 
working that.
    I have been working with Secretary Richardson on the new 
initiatives that came through in 1998. I am certainly aware of 
the suggestions that the FBI made and our responses to those. 
If you asked me, you know, recommendation A, B, C, D, E, F, G, 
that particular thing, again, I would have to get back with 
you.
    Mr. Rogers. I am shocked. I am absolutely shocked. You knew 
you were coming here to testify, and you knew that the Chinese 
espionage matter was on the front burner of everybody, and I 
would have thought you would have been absolutely prepared on 
this whole topic.
    Mr. Packard. We will discuss that, of course, next week in 
detail.
    Mr. Rogers. But he didn't know that before today, did he?
    Mr. Packard. That I don't know.
    Mr. Rogers. He should have been prepared to answer the 
questions on security at the national labs.
    I am shocked that you weren't prepared for that. Help me 
out.
    Dr. Reis. I did know that we were not going to discuss the 
specifics of this. I am completely on top of the programs in 
terms of what we are doing and what the nature of the security 
are at those laboratories, and I will be glad to discuss that 
with you.
    Mr. Rogers. I am not dealing with a specific incident. I am 
talking about in general the security at the labs and what have 
we done to beef them up in view of what happened.
    Dr. Reis. We have looked at a number of areas in terms of 
physical security. We have looked at each of those 
laboratories. We have instituted at each of the laboratories a 
detailed counterintelligence effort. We have looked at--as I 
think the Secretary has mentioned, we are instituting a 
polygraph program for those things that are specifically 
sensitive. We are reviewing and have looked at some--in 
response to the specific counterintelligence efforts that the 
Secretary mentioned, there were about, you know, well over tens 
of different specific implementation recommendations that 
Secretary--that Mr. Curran has put forward.
    Mr. Rogers. Who will be here next week to testify about 
this?
    Mr. Packard. We will have the intelligence people and the 
counterintelligence people and Mr. Ed Curran.
    Mr. Rogers. Will Dr. Reis be here?
    Dr. Reis. I will be pleased to be here if you want me to 
come.

                          security at the labs

    Mr. Rogers. You are in charge of security, are you not, for 
the weapons laboratories?
    Dr. Reis. I am in charge of operating those laboratories, 
and security is one of those responsibilities, yes, sir.
    Mr. Rogers. Well, then, I would hope you will be here.
    Dr. Reis. I certainly will be here if you want me.
    Mr. Rogers. If you bring with you the changes in security 
that have been implemented recently.
    Dr. Reis. Yes, sir. And, again, I am prepared to go through 
those with you now, but we can go through those again in a lot 
more detail.
    Mr. Rogers. I think it probably would fit better to do it 
next week.
    Mr. Packard. We will evaluate who should be at the meeting. 
We have not made that determination.
    Mr. Rogers. Now, have you established a new Office of 
Internal Security at DOE?
    Ms. Gottemoeller. Sir, there is a new Office of 
Counterintelligence at DOE headed up by Ed Curran.
    Mr. Rogers. The FBI recommended a new Office of Internal 
Security. Is this the same thing? It doesn't sound like it.
    Ms. Gottemoeller. Sir, I am responsible for the Office of 
Security Affairs, which includes inside of it the Office of 
Safeguards and Security. So we, as Dr. Reis said, set the 
policy for the Department overall and its laboratories in the 
security arena.
    Mr. Rogers. So you don't have an office called Internal 
Security?
    Ms. Gottemoeller. No, sir.
    Dr. Reis. No, sir.
    Mr. Rogers. But that is your business.
    Ms. Gottemoeller. Sir, my Office of Security Affairs, which 
I am frankly unsure of what the difference would be between the 
Office of Internal Security and the Office of Security Affairs, 
perhaps it is just a nomenclature difference, but they are 
responsible for the security policy setting inside the 
Department of Energy.
    Mr. Rogers. Well, if you are setting the policy, who is 
implementing the policy?
    Ms. Gottemoeller. The policy is implemented in our 
programmatic offices by Dr. Reis's office, but by the other 
programmatic offices of the Department as well.
    Mr. Rogers. Now, is that office--well, were you in this 
office--how long have you been in this office?
    Ms. Gottemoeller. I came to the Department of Energy and 
assumed my current position in November of 1997.
    Mr. Rogers. Well, the investigators talk about the culture 
that exists within the Department that security is no big deal, 
and I think we are seeing here a little bit, Mr. Chairman, of 
how that comes to be. There has to be somebody that we can turn 
to and say, why did you let so and so happen? Or, what are you 
doing to prevent it in the future? It is like hitting a pillow 
around here. You are not in charge of security, are you? You 
are only in charge of security policy. But I am looking for one 
person in the Department of Energy who is responsible, that we 
can point to and ask questions and heap praise or blame for 
security of our weapons systems.
    Mr. Packard. We hope to have those people here next week.
    Mr. Rogers. Well, here is the boss.
    Mr. Packard. He is the custodian of the labs.
    Mr. Rogers. And here is the policymaker for security. I 
guarantee you next week they are going to say, well, that is 
not my job, that was Dr. Reis or that is Ms. Gottemoeller. So 
where can we look? Who can we talk to?
    Dr. Reis. I think you start at the top, Mr. Rogers. I think 
that Secretary Richardson has been very forthcoming in 
discussions, in terms of what he has been able to do in a 
relatively short time to improve that situation. He certainly 
provided the energy and the insight and the decisiveness to 
make those changes, which I think we all recognize is 
necessary.
    Both Ms. Gottemoeller and I report in terms of 
nationalsecurity within the structure of the Department of Energy to 
Under Secretary Moniz.
    Mr. Rogers. Is he coming next week?
    Mr. Packard. I don't know.
    Mr. Visclosky. Could I ask, you mentioned April of----
    Mr. Rogers. 1997.
    Mr. Visclosky. What was that date?
    Mr. Rogers. I don't know the specific date. It was April of 
1997.

                          Security at the Labs

    Mr. Visclosky. Was there a system to have been put in place 
in conjunction with the FBI and CIA?
    Mr. Rogers. The investigators had been investigating, I 
understand, since 1995. It was discovered. It looked like 
something had happened. The FBI came in, I think, in 1996. Then 
in April of 1997, according to Louis Freeh, the FBI issued to 
the Department, I think he said, 16 recommendations for 
improving security in the labs. Correct me on this.
    Mr. Visclosky. I would share your concern prospectively, 
because what has happened over the last two decades we can't 
undo. But prospectively, obviously, we have a responsibility 
here.
    Mr. Rogers. Yes. I am not trying to seek blame here. I am 
just trying to find out who--if there is this culture that 
security is not a major problem, and I am sure with the labs 
doing multitasked chores that it is terribly difficult, that 
complicates it incredibly, in my opinion, keeping this part 
super secret, but the same personnel talking about other 
matters and developing a friendship and a fraternity with 
international scientists where without any intent, as Director 
Freeh said yesterday, without any intent to leak an important 
matter, a very skilled spy could draw oral conversations and, 
even memorizing formula in their head without any papers 
passing, could leak sensitive information, very sensitive 
information.
    So I am looking for what we are doing to insulate, 
absolutely insulate, the weapons portion of the laboratories' 
work from whatever else they do, and are we taking steps to do 
that?
    Dr. Reis. We have been in the past taking steps to do that. 
We are going to be taking a lot more steps. I think this 
incident is shocking to you; it is shocking to us as well. I 
have got to tell you, it is very shocking to us, and we are 
taking extreme steps to assure ourselves it doesn't happen.
    At the same time, you don't want to throw out the baby with 
the bath water, because we really do need the best and the 
brightest people working on these problems. But we are talking 
about, I couldn't agree with you more, this is a supreme 
national interest, and you just have to be ever vigilant in 
terms of how you are dealing with that culture, as you 
described it. It is not a simple problem, but it is one you 
have to work on, and work on daily and work on continually.
    Mr. Rogers. We want next week to have the nitty-gritty. We 
want the absolute details of what you are doing to insulate the 
weapons secrets from everything else, and we want to know if 
you have not followed the investigators' recommendations about 
how to insulate it and keep those secrets, we want to know why.
    Dr. Reis. Thank you.

                           GAO Report on IPP

    Mr. Packard. Thank you very much.
    The culture is more in the scientists perhaps where they 
are just accustomed to sharing information, consulting with one 
another, and that culture, of course, will probably continue, 
because that is the nature of scientific research. But that 
does not preclude those who literally implement the protective 
measures, because they don't have to have that culture. That is 
not necessarily a culture of the operators of the lab. I 
appreciate that.
    Let me just ask a couple of questions of Ms. Gottemoeller. 
Why is it that only 37 percent of the IPP program is getting to 
the Russians and almost two-thirds of it is remaining here in 
our labs and our institutions?
    Ms. Gottemoeller. Sir, that is a recommendation--first a 
concern expressed by the GAO report, and then a recommendation 
that we have taken very seriously, and, in fact, we are working 
with a direct goal to flip that percentage. We would like to 
have 60 percent going to the labs in Russia within a very short 
time period. In fact, we are at the point of 50-50 in 
programmatic funds now, but I don't consider that good enough.
    We are working in many ways, too, by direct talks with our 
labs about contracting procedures, by considering how to take 
particular steps in terms of ensuring that more work is done in 
Russia. For example, the construction of prototypes can be done 
very well in Russian labs. It doesn't have to be done in our 
labs. And by ensuring that overall funding flows through, the 
commercialization processes are sped up. We are taking multiple 
steps to ensure that we flip that percentage very quickly, and 
it is among the recommendations of the GAO report that I take 
very seriously.
    Mr. Packard. Thank you.
    How can you expect our scientists to go over to Russia and 
assist them in commercializing their products that come out of 
the Russian laboratories when we don't have a very good track 
record of our own here in our country of commercializing the 
technologies that come out of our labs?
    Ms. Gottemoeller. Sir, commercialization is difficult. 
There is no question about it. It usually takes a minimum of 5 
years in this country for a technology to come out of the labs 
and land in a commercialized state, so to speak. But we are 
confident that we can have success, some success, in this 
regard, working with the Russians, because we have a great deal 
of interest from industry already.
    Again, the GAO report pointed to lack of success in 
commercialization. I believe, in fact, they are wrong, because 
we have attracted in the last couple of years $38 million in 
industry funds to the IPP program, and 75 companies are 
currently--even with the economic crisis in Russia, are 
currently participating in the IPP program. So we are working 
and continuing to work to emphasize commercialization in the 
IPP, and I believe that we will have success in doing so 
because I see the evidence of companies' interest, and they are 
placing their money behind that interest. So I think we have to 
continue pushing in that regard, and with the difficult 
economic situation in Russia, we will have to remain very, very 
vigilant as to how that process is proceeding. But I do think 
we have some evidence of industry interest and funds.

         Negotiations with Russians on Nonproliferation Efforts

    Mr. Packard. Thank you.
    Ms. Holgate, in respect to Mr. Edwards' questions and 
comments, if it was so significant to have the money to 
encourage the Russians to come to the table on the 
nonproliferation efforts, why did not the Department request 
the money and go through the normal channels with the 
committee? Why was it left to the supplemental?
    Ms. Holgate. Whether in the formal budget request or on the 
supplemental, it was not an administration initiative, 
primarily because when we come to you to ask for money, we have 
to put forward a very clear budget justification. The Congress 
is not in the habit of giving the administration walking-around 
money, if you will, to get negotiations started. If Congress 
wants to provide that to us, then that is fine. The situation 
here is that once having offered it, to then remove it, I 
believe places us in a significantly worse case than never 
having offered it in the first place.
    Mr. Packard. Are there not significant motivations for the 
Russians to come to the table inherent within the process?
    Ms. Holgate. There are, but they are not as significant as 
they are for us. They can't possibly be sure about the security 
of our nuclear materials as we are about the security of their 
materials.
    Mr. Packard. I have great concerns about bribing people to 
come to the table with money, because we already share so much 
money with Russia on programs, that I hate for that to become 
the motivation for them to come and bargain with us. They have 
great reasons to come and work with us in an effort to take 
down and dissemble their nuclear systems or to upgrade and 
improve their systems.
    Mr. Visclosky, I am going to you. We would like to wrap 
this up in about 10 minutes, if we may. You can have all the 
time you want.
    Mr. Visclosky. Thank you.
    Mr. Packard. It is just the rest of us. Actually, we could 
go longer if you like. I just have a meeting with the Speaker 
at 1 o'clock. I need to make that meeting. I could have one of 
the other Members chair.

                      Balance Between Plants/Labs

    Mr. Visclosky. I understand. Dr. Reis, you were kind enough 
a couple of weeks ago, when my staff contacted you about a 
number of questions I have on stockpile management, to get back 
to me with written requests, and I do appreciate that. That 
would underline my line of questioning now.
    I realize that we have a dual responsibility here, 
stockpile stewardship and stockpile management. I must tell you 
that I am very concerned about the management side, because I 
think the science is critically important, but the application 
of that science is of equal importance. If it is not applied, 
we don't benefit.
    If I could direct your attention to Kansas City, first of 
all, in your response you indicated that there were additional 
funds allocated to Kansas City for hiring. Could you tell me 
where in the budget request those monies are and to what extent 
they have occurred? I can't find them.
    Dr. Reis. I will get back to you on that. I don't have that 
off the top of my head. We have allocated additional funds for 
Kansas City specifically for that purpose.
    [The information follows:]
                   Additional Funding for Kansas City
    As we were finalizing the FY 2000 budget request and were assessing 
the balance among many competing priorities within the overall Weapons 
Program, we made a decision to increase the funding allocated to the 
Kansas City Plan by $14 million, to a total of $287.6 million. The 
funding is included in the Kansas City site allocations in the budget 
justification, and is included in the ``Special Projects and Other'' 
category of the Stockpile Management budget request. The additional 
funding is intended to assist in maintaining employment levels and the 
proper skill mix needed for identified future mission requirements.

                    Employment-Engineers/Technicians

    Mr. Visclosky. Also you indicated in your written response 
that the essence is to earmark some funding for new hires. 
Would you describe those new hires? In your mind, who are those 
people?
    Dr. Reis. I think what we are going to hope to do is 
attrition; we will be able to pick up some headroom, if you 
will, you know, in attrition. We are really talking about some 
of the younger folks who could help with the flexible 
manufacturing areas that we are doing.
    Mr. Visclosky. Would those be engineers?
    Dr. Reis. Engineers and technicians as well.
    Mr. Visclosky. Would you for the record tell me what your 
perception of the breakdown is between engineers and those on, 
if you would, the shop floor be?
    Dr. Reis. You bet.
    [The information follows:]

                    Earmarked Funding for New Hires

    Currently at the Kansas City Plant there are approximately 
500 engineers and 600 production technicians, consisting of 
operators, tool room helpers and material handlers. It is 
expected that new hires of engineers and production technicians 
would be made in about the same proportions.

                         kansas city employment

    Mr. Visclosky. My understanding based on testimony by Ms. 
Claig before the Military Procurement Subcommittee is that at 
Kansas City, only one out of 1,156 hourly employees is under 30 
years of age, and that only 61 of 2,065 salaried employees are 
under 30. That gives me great concern.
    Dr. Reis. It certainly concerns us as well, and I think 
that was the concern that I think Mr. Latham expressed as well.
    Again, we have gone through a major transition. Kansas City 
itself I think has dropped off in size perhaps a factor of two 
over the past 10 years or so, perhaps even less than that. The 
work force has changed, basically the budgets change. We are 
resizing the place. The missions are changing as well for 
Kansas City.

                         infrastructure funding

    Mr. Visclosky. As to current missions in infrastructure, 
and you alluded to that, it is of great concern to me. As far 
as workload, and again, getting back to testimony before the 
Armed Services Committee, I understand at Kansas City alone, 
and these are four facilities I am very concerned about, there 
is an underfunded portion of $2.2 million for the B-617 common 
radar. There is a $5.7 million unfunded requirement for the 
replacement of critical skills production capacity, $2.8 
million shortfall for workload replacement of obsolete 
production testers, and a $1.9 million shortfall for workload 
production support insight operations.
    Would you argue with those figures or not?
    Dr. Reis. I wouldn't argue with those figures specifically. 
I think we are faced every year with balancing out those 
priorities that we have to have. I will not argue specifically 
with those numbers. If we fully funded those, then there would 
be some other part of whether it is the Stockpile Management or 
Stockpile Stewardship that would not specifically get funded. 
We have to make that balance every year. You have to make that 
balance yourself as you go through this. It is our best 
judgment that the budget we have put forward with you does the 
best we can to meet the total requirements of the Stockpile 
Stewardship and Management as well.
    Mr. Visclosky. Let me ask a generic question. Do you think 
the physical needs as far as real property maintenance are as 
seriously underfunded at the labs as under the stewardship 
program as they are under the management program?
    Dr. Reis. We tried to balance those out.
    Mr. Visclosky. I didn't ask the balance. Do you think they 
are seriously underfunded, the real property requirements at 
the 3 labs you have jurisdiction over, as they are at the four 
plants?
    Dr. Reis. I would say they were, within first 
approximation.
    Mr. Visclosky. Would you provide the subcommittee with a 
rationale as to why you think they are underfunded?.
    Dr. Reis. All right.
    [The information follows:]

                    Laboratory/Plant Infrastructure

    A standard metric for assessing annual maintenance funding in the 
private sector is the ratio of annual maintenance funding to 
Replacement Plant Value (RPV) expressed as a percentage. The norm for 
private sector facilities comparable to our laboratories and production 
plants range from 2 to 4%. The average for Defense Programs sites from 
1994 to 1997 was 1.8% as reported in a Facility and Maintenance Program 
Assessment completed in May 1998. The average for each of our 
laboratories and production plants as reported in the Assessment was as 
follows:


                                               Production
         Laboratories           Percentage       Plants       Percentage

Los Alamos....................       1.15   Pantex Plant....        4.2
Lawrence Livermore............       1.2    Kansas City.....        2.6
Sandia........................       1.63   Y-12............        0.6


    Maintenance funding at all of our laboratories is below the norm in 
the private sector. While this and other metrics may be helpful for 
comparing our sites and even in understanding the magnitude of the 
maintenance problems within Defense Programs, we recognize that a 
detailed look at individual sites is necessary to fully evaluate the 
problems and issues. Each site prioritizes its maintenance program 
differently and may fund it differently. Some line items in the budget 
address projects which could be considered maintenance such as 
resurfacing roads and roof replacements. For these reasons, I issued a 
Defense Programs policy statement in December 1997 which requires each 
of our laboratories and production plants to develop an annual 
Comprehensive Site Plan which addresses all aspects of facilities 
construction and maintenance in an integrated manner for a 10 year 
planning window. The initial plans were received in January of this 
year. The ultimate goal of this approach, and the only true measure of 
maintenance adequacy, is to define facilities requirements in terms of 
a ``desired end state'' which is ultimately driven by programmatic 
requirements. Based on these initial plans there are indications that 
property maintenance at our laboratories has been underfunded on a 
scale similar to that of the plants.

                            personnel needs

    Mr. Visclosky. Do you think the personnel needs you have at 
the three labs are as underfunded and are as critical?
    Dr. Reis. No, I don't think so. I think very frankly as we 
move forward in the stewardship effort in terms of maintaining 
the stockpile without testing, that was our first priority. We 
have built up the personnel at the laboratories. That was our 
first priority as well. Of course, that is where we have put 
the emphasis on. So I would agree and your point is well taken.
    Mr. Visclosky. Mr. Chairman, I realize that you want to 
conclude. I will have some additional follow-up, if I could, 
and would just mention----
    Mr. Packard. We will go on with the hearing. Mr. 
Knollenberg will chair it.
    Dr. Reis. Could I respond? One thing, though, while you are 
all here, I want to make a commitment to Mr. Visclosky, and let 
me make that commitment to everybody vis-a-vis your concerns 
about letters or anything else, information, that you have. If 
you are not getting it, when I said I will get back to you, I 
am getting back to you this afternoon on that.
    Mr. Visclosky. My criticism is not directed to you.
    Dr. Reis. I understand. Let me make a personal commitment. 
If you are not getting the type of response that has anything 
to do with laboratories or anything that I have any association 
with, or security for that matter, if you are notgetting the 
kind of response, call me directly, personally, and I will either get 
back to you right away in terms of giving you the answer or let you 
know why. That is true with any of the other Members, not just Mr. 
Visclosky, because I think it is very important that we maintain this 
type of relationship.

                            plant employment

    Mr. Visclosky. At Pantex--and again, we have had written 
communication and all of that will be submitted in the record 
as to particularly concerns I have on the real property--in 
your response you indicated that a recapitalization program for 
the Pantex plant has been proposed and is being reviewed. I do 
appreciate that. I guess my concern is I have a sense of 
urgency myself, and the reason I asked to get on this committee 
and maybe the word is ``begged'' to get on this committee for 6 
years, 9 months and 9 days, I remember it well, is you make 
policy or don't make it based on where you spend money or you 
don't, and I think there is a need and would hope that there is 
an urgency that the office attaches to this. I think 
particularly on the human resources side, the people in those 
plants, it is a very, very serious and dangerous situation.
    Dr. Reis. Yes, sir.
    Mr. Visclosky. They ought to have good workers. I realize 
you have a balance here, because you are downsizing.
    Dr. Reis. Yes, sir. No, I share that concern, and I have 
got to assure you that we spend on awful lot of time and 
effort, certainly in Washington, because that is where it comes 
together, in trying to understand how we make that balance.
    I will point out that the Chiles Commission, in looking at 
that, said there are several things that we do now and number 
one was to indicate the commitment to the stockpile program is 
maintained, both by the Congress and by the Administration. 
Certainly we are getting the attention now for whatever reason.
    The second thing was on the budgets, that people were 
really concerned about how we are not getting funds for people 
in the budgets. They are not sure yet that we have a long-term 
program. A long-term program is, as you indicated, and 
certainly I agree with you, it is one thing to talk about the 
policy; it is another thing if you are putting the money to 
basically back that up. That requires a long-term commitment 
from the Administration, and it requires the Congress to 
support that commitment as well.
    Mr. Visclosky. Well, as far as long term, too, if you have 
people coming in and they see others being laid off because 
there are insufficient funds to retain everyone, that 
transcends the issue of downsizing the facilities and 
responsibilities.
    Dr. Reis. You bet.
    Mr. Visclosky. It is a very strong disincentive to get the 
brightest and best people for the long-term.
    Dr. Reis. If you asked me what we feel the Defense 
Program's major vulnerability over the long term, it is not 
understanding what we have to do longer, it is really the 
people. It is the people at the laboratories and at the plants, 
and, frankly, I also agree with you that our first priority, 
had been at those laboratories, because that was it, and then 
plants. But if you don't as I tried to indicate, if you are not 
building something, there is no point in certifying it.
    Mr. Visclosky. I will conclude by simply saying I see a 
commitment when I see dollars on the table. We have seen a 
reduction in the request for funds this year. I would like to 
see those dollars on the table.
    Dr. Reis. Yes, sir.
    Mr. Packard. Before I leave, the Speaker has asked me with 
all of the chairmen of the appropriations committees, and I 
must be there----
    Mr. Visclosky. Does that we mean we are going to get more 
money?
    Dr. Reis. I would encourage you to leave then.
    Mr. Packard. That is probably going to be one of the items 
of discussion.
    We will be submitting a significant number of questions for 
the record. If you would respond with your staff to those, I 
would appreciate it.
    I will ask Mr. Knollenberg to chair. He is next for 
questions.
    Mr. Knollenberg. I will assume the chair----
    Mr. Packard. Before I leave, we have not made a final 
determination on who will be at the briefing next week. If you 
do not hear from us, do not show up.
    Dr. Reis. It will be my pleasure.
    Mr. Knollenberg [presiding]. I will make an agreement here 
before we get into these final questions. We know we should get 
you out of here very quickly. I will take about 5 minutes, and 
I thing Mr. Edwards has about--can we do that--and come to 
agreement. We should be out of here at 5 after 1.
    Let me just follow up on a couple of quick questions. I am 
going to submit a number for the record as well.

            dual track to plutonium disposition: mox program

    Mr. Knollenberg. Ms. Holgate, I think Tom Latham talked 
about the MOX program briefly. I think I heard you say in your 
testimony, or maybe I read this, that in Russia, if Russia 
doesn't move on this MOX program, the dual track program, we 
won't either. Is that what I heard? Is Russia moving is my 
question?
    Ms. Holgate. Yes, they are.
    Mr. Knollenberg. In a way you can track and you feel 
comfortable, and it gives us some excitement about this 
program?
    Ms. Holgate. Yes, it does. Excitement is a good word, 
because I think we have had a lot of progress in this area. We 
are working cooperatively on $25 million worth of joint 
technical research with them over fiscal year 1999, and I asked 
for a similar amount of money in fiscal year 2000, and we have 
negotiations under way and in full swing.
    Mr. Knollenberg. We will follow that very closely. As one 
member of the subcommittee, I am very, very supportive of that 
move. I am sure many others are as well. If we can reach 
success and achievements, that will be great.

                   critical infrastructure protection

    Mr. Knollenberg. Let me turn to a quick question about the 
hackers, the fear that some hacker is going to get into the 
Pentagon. I guess you could either--Ms. Gottemoeller, just give 
me a very quick idea about what you think ishappening. Is it a 
real fear?
    Ms. Gottemoeller. Yes, sir, it is. The President's decision 
directive on critical infrastructure protection pointed to 
threats in the cyber world as being a major new aspect of the 
problems that not only the government and governmental 
organizations, but also the private sector have to grapple with 
in this modern age. So it is a very significant threat and one 
that has been pointed to recently in this PDD on critical 
infrastructures.
    We have within the Department of Energy established a Task 
Force on Critical Infrastructure Protection that is looking at 
the issue of cyber protection in the overall governmental 
aspect, but there are other kinds of work that the Department 
is to do in this regard. The Secretary, for example, yesterday 
announced a new initiative in the counterintelligence arena to 
ensure that additional cyber protection is afforded to the 
computer systems at our labs, in addition to which we have 
research and development work going on to improve cyber 
protection systems. So there are a number of areas in which DOE 
is working on the cyber protection problem.
    Mr. Knollenberg. There are high-tech terrorists that are 
capable of crashing or hacking and are out there trying to get 
in, I understand.
    Ms. Gottemoeller. Absolutely, sir. That is why we need 
high-tech fences, to protect against them.

                           Computer Modeling

    Mr. Knollenberg. Dr. Reis, you and I have had a 
conversation in the last year, and I appreciated the courtesy 
of meeting with you regarding this whole idea of the change 
from the scientists of old to the new scientists coming on 
board. There are some concerns you shared with me about what do 
we do about that and how do we bring on bright new talent. 
Obviously, to some extent we tried to help here by a couple of 
initiatives that I am sure you are aware of.
    The concern that I think all of us have is now that you are 
not doing the actual testing, and you spoke of this as well, 
you have a deal now with the computer models and that kind of 
thing. Those models, as you testified in your previous 
commentary, they have given you some assurances that you feel 
are enough for you to say that we certified, I think is how you 
expressed it, the reliability.
    But do you have any doubts about the computer model being 
the end-all, and if you wouldn't mind just taking a moment to 
share those with us if you do?
    Dr. Reis. When I stop having worries about that, that is 
the time you should start to worry. I mean, that is a continual 
concern of ours in the Stockpile Stewardship Program.
    There are a number of ways it can fail. One way is we get 
complacent about testing, system that is continually looking at 
the stockpile itself and continually asking questions, is this 
right, are we doing the right things, are we working on the 
problems. That is why it is a very important thing to get the 
right people involved so they are continually testing. That is 
the basis why, for example, we have two design laboratories and 
doing things like dual revalidation, where we are continually 
asking those questions. It is the basis why we are doing not 
just the surveillance program and looking at things, but really 
trying to predict what we think might happen in the future.
    Mr. Packard asked earlier about some of the work, how do we 
understand these aging processes. We don't want to just sit and 
wait and see what happens. We are trying to understand the 
whole issue of where that is. So we are continually asking 
ourselves.
    The other part of that is that is why we are maintaining 
the Nevada Test Site, because if it doesn't work out, we will 
have to go back and test. The Secretary has said, and I am sure 
the Department of Defense has said, look, if we have a problem, 
we are prepared to go back and tell the Secretary that we will 
certainly tell the President that we have a problem that we 
simply have to go back and test.
    Mr. Knollenberg. You have no hesitation about making that 
clear?
    Dr. Reis. None whatsoever.
    Mr. Knollenberg. I think that is something you should have 
the freedom to be able to do.
    Dr. Reis. As I say, you know, there are a number of ways we 
can have a problem here, and complacency is a very important 
one that we have to watch out for continually.

                           GAO Report on IPP

    Mr. Knollenberg. Very quickly and back to the point of the 
question--I don't recall who raised the question, I think it 
might have been the Chairman regarding the money. I think it 
was the Chairman that brought it up. In terms of the money that 
you referenced, the 37 percent that goes to the scientific side 
of things, but that 37 percent does not really get tracked in 
terms of how much of it gets into the lap of the scientists 
themselves. My understanding, and I am reading the GAO report, 
and I would just like your comment on that, the amount of money 
that reached the scientists at the institutes is unknown 
because they say the institutes' overhead charges, taxes and 
other fees reduced the amount of money that was ultimately paid 
to the scientists. Is that a correct statement, in your 
judgment?
    Ms. Gottemoeller. Sir, there have been some problems with 
some of the lab directors in Russia who have not been paying 
the scientists apparently, as we understand, and we agree with 
the GAO's findings on this, have not been paying the scientists 
who have been working on the projects directly, but have been 
dealing with some of their other problems, and they do all have 
considerable problems, I grant them that. In fact, I will 
recall for the panel the suicide of the Director of 
Chelyabinsk-70 a couple of years ago? The note he left said he 
was in despair about not being able to provide salaries for his 
people.
    So we understand they have very tough problems. However, we 
have been very clear in our instructions and contracting 
processes that the scientists working on these projects should 
receive what has been the baseline figure used throughout the 
brain drain programs by the governments, $600 a month. That is 
the figure used in the International Science and Technologies 
Center program as well. Recently that figure has been raised to 
$700 a month, and we are redoubling our efforts to ensure that 
that amount is actually received by the scientists working on 
the projects.
    Mr. Knollenberg. We will follow through with you on that, 
because it seems that is an important point as well.
    I am going to conclude my questioning and turn to my 
colleague Mr. Edwards. I will let, unless Mr. Visclosky----
    Mr. Visclosky. I am fine.
    Mr. Knollenberg. I think that is the end of the story.
    Mr. Edwards. Could I ask the Chairman's support for having 
approximately 5 minutes?
    Mr. Knollenberg. You can.

                         plutonium disposition

    Mr. Edwards. We are at 1:03 right now. Thank you. Mr. 
Chairman.
    Let me go back to the plutonium disposition issue. Ms. 
Holgate, the Chairman asked, I think, a good question, frankly, 
that I had. If this was so important, why wasn't this money 
offered before? I am not sure I totally accept your answer, 
considering how important this issue is.
    Having said that, the fact that the money was appropriated, 
the fact that it has been used, I think that critical question 
that this committee has a very special obligation to all of our 
other colleagues in the House, Democrat and Republican alike, 
to use our expertise or our access to you on this issue to give 
our best advice on whether at this time with the money being 
appropriated, with the money being a carrot on the table today, 
being used in an ongoing negotiation, is that money potentially 
effective?
    It seems to me one way to answer that question is to look 
at the proof of the pudding. The fact is that this week or next 
week Mr. Primakov is going to be signing an agreement to take 
out I don't know how much, but a large quantity of enriched 
uranium, to make it basically non-weapons-usable. Is that going 
to be signed today, tomorrow, this week, next week?
    Ms. Gottemoeller. Sir, we have actually just heard from 
Moscow today that all the documents have been completed, and we 
do expect it to be signed next week when Prime Minister 
Primakov is here.
    Mr. Edwards. That $325 million that was used brought people 
to the table that previously had not come to the table on this 
particular issue. How much uranium are we talking about in 
effect taking out of the marketplace of thugs, organized 
criminals, international terrorists, that they will no longer 
be able to use this for potential weapons to be used against 
American civilian populations or for any other use for that 
matter?
    Ms. Gottemoeller. For this year on out through the life of 
the contract, we will be removing 30 metric tons of highly 
enriched uranium.
    Mr. Edwards. Thirty metric tons. I frankly had the same 
question that the Chairman had, and if I had more time, I would 
go back into your answer, Ms. Holgate. But I think having heard 
the Chairman's question and your answer, I think the more 
critical question is once the money was spent, did it do any 
good? I would suggest very strongly to all of my colleagues, as 
I will in a Dear Colleague letter--is the 30 metric tons a 
nonclassified figure?
    Ms. Gottemoeller. Yes, sir, that is well known, and I 
should underscore that is 30 metric tons annually through the 
year 2001. At that time, we will need to negotiate another 
delivery contract.

                    nonproliferation issues/concerns

    Mr. Edwards. Okay. I wish the Chairman were still here, and 
I will talk to him about this. I wish, along with the other 
hearing we are having next week, before the entire House votes 
on this terribly important rescission, whichever side people 
ultimately come down on, it seems like this subcommittee has a 
special obligation to know as much as we can about whether that 
is in the best interests of our children and grandchildren and 
future generations in this country. If we conclude it is, then 
I will respect that, but to go to the floor of the House 
without even this subcommittee that has direct responsibility 
over that having had one day of hearings on it concerns me 
greatly.
    The final question, in the name of time, I would like to 
ask Ms. Gottemoeller. Looking at your resume, you clearly have 
a great deal of background and experience in Russian defense, 
arms control, nonproliferation issues. I would like to ask you 
where in this list of priorities of nonproliferation of 
nuclear-grade materials, the whole issue of arms control, to 
try to protect the civilian populations in the United States or 
forces abroad, where would you put the present plutonium 
negotiations in that whole idea of priorities? Is it a small 
dot on the radar screen? Is it a major negotiation? Is it 
unimportant; is it extremely significant? Based on your 
experience, how significant are these ongoing negotiations?
    Ms. Gottemoeller. Sir, they are very significant. They 
basically, I believe, are the other half of a very successful 
policy that we have been pursuing with regard to highly 
enriched uranium. That is one type of weapons-usable material. 
Now we are at the point where we are grappling with and 
beginning a very intensive policy to handle the other kind of 
weapons-usable material, plutonium. So this is an extremely 
important effort.
    Mr. Edwards. Could I ask both you and Ms. Holgate in a 
nonclassified letter, to send to me by Monday a letter stating 
any and all of the usual concerns about the possible rescission 
of three-fourths of the money that is presently on the table in 
our negotiations with the Russians?
    Ms. Gottemoeller. Certainly, sir.
    Ms. Holgate. Absolutely, sir.
    Mr. Edwards. Mr. Chairman, I guess what I would conclude on 
this point is I make mistakes every day in this political 
process where we all have to make such quick decisions on 
limited information, but once in a while I think an issue that 
comes along that is so incredibly important, as other Members 
mentioned in their questions a few minutes ago, that we need to 
be careful not to just see this as another issue and at 1:15 we 
go on to do other things, and answer mail to constituents and 
phone calls. This is an issue, if we are wrong, you are 
basically putting, potentially, 50 tons of plutonium, weapons-
grade plutonium, potentially in the marketplace, and the 
consequences of not being 100 percent sure that we are making 
the right decision could be catastrophic for millions of 
American citizens, our soldiers abroad.
    I just would like to express to the Chair and the staff 
that I am approaching Chairman Packard about my strong feelings 
on this in the hopes that we can pursue this. I am not--I don't 
pretend to be the expert on this. If my concerns are overblown, 
unsubstantiated, not realistic, then I would accept the final 
floor vote of the House next week on the supplemental. But 
based on the answer to the questions today from people who live 
and breath the issue of nonproliferation of nuclear materials, 
I think there is reason to suggest this could be very serious 
mistake.
    To do so at the very time we are debating as we sit here 
spending billions of dollars on a national missile defense 
system because we want to protect the civilian population 
against potential threats from terrorists or rogue leaders, at 
the same time we are debating national missile defense, for us 
to save $150 million to pay for a hurricane in Central America, 
as important as that is, to potentially allow nuclear-grade 
material to go back on the marketplace of organized crime or 
whatever else exists in that crazy marketplace in Russia is 
just unfathomable to me, to allow upto [Deleted] nuclear 
warheads to be built with that material.
    This is a huge disconnect between the debate on the floor 
right now and what we are going to do potentially in the 
rescission bill. If I am wrong, I will be the first to say to 
my colleagues, to the Chairman, to the members of this 
committee, I didn't have all the facts I needed. But I don't 
think the people who are going to be having to vote next week 
that might vote differently than me have nearly the facts they 
need to make such a crucial decision.
    So my intent is to take this out of the realm of ordinary 
issues that we have to vote on every day, and if we make a 
mistake on Army housing, you know, tomorrow, we can correct 
that a week later or next week. If we make a mistake on this, 
50 tons of plutonium, we may not be able to correct it. 
Hopefully we can. I pray that we could, but we may not be able 
to.
    So I would ask you to give an honest answer--I don't want 
to bias your expertise with my lack of expertise. Give me your 
honest feelings about what your concerns might be and what 
might happen should we pull the money off that is presently on 
the table.
    I thank the Chairman for indulging me in what is a terribly 
important issue to me. I want to assure you there is no 
partisanship involved in this. It is just something I think in 
the rush of the business we have to do around here, we as 
Members haven't had a chance yet on both sides of the aisle to 
really think through. is this $150 million really what we want 
to rescind to help pay for the supplemental? Thank you, Mr. 
Chairman.

             russia's contribution to plutonium disposition

    Mr. Knollenberg. Thank you very much. I think with one 
exception, I do have one question I didn't ask Ms. Holgate 
regarding the money. How much money have the Russians put up 
for plutonium disposition?
    Ms. Holgate. The conversation with the Russians is not 
focused on matching dollars. We are focusing on matching tons 
of plutonium. The Russians have made it clear, however, that 
they intend to provide manpower, facilities and technical 
expertise and technologies to bring to the table to make this 
whole thing work.
    Mr. Knollenberg. So the plutonium is the money?
    Mr. Holgate. I am not sure.
    Mr. Knollenberg. It is a barter type of thing?
    Ms. Holgate. We are bartering plutonium for plutonium, but 
then the point comes as in the START treaty where their ability 
to live up to mutual obligations is going to be--has been 
slightly--has been improved by U.S. willingness to help them 
meet those obligations.
    Mr. Knollenberg. There has been no cash put on the table?
    Ms. Holgate. No.
    Mr. Knollenberg. That then concludes things. We appreciate 
very much the panel, Dr. Reis, Ms. Holgate, Ms. Gottemoeller. 
We thank all of you, and this--unless we have any further 
comments, this subcommittee will stand adjourned until 10 
o'clock on Tuesday. Thank you.
    [The questions and answers for the record follows:]


[The official Commmittee record contains additional material here].




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barrett, L.H.....................................................     1
Gottemoeller, R.E................................................   241
Holgate, Laura S.H...............................................   241
Owendoff, J.W....................................................     1
Reis, Dr. V.H....................................................   241


                               I N D E X

                              ----------                              

                    Atomic Energy Defense Activities

                                                                   Page
120 Day Study....................................................   334
Accelerated Strategic Computer Initiative: Benefits to Industry 
  and Universities...............................................   325
Accelerated Strategic Computing Initiative................324, 326, 555
Accelerator Production of Tritium................................   316
Advanced Hydrotest and Pulsed Power Facilities...................   351
Aircraft Use.....................................................   347
Amarillo Plutonium Resource Center...............................   346
Anti-Terrorism Technology at Brookhaven National Laboratory......   530
Area Offices Vs. Operations Offices..............................   353
Balance Between Laboratory and Plant Budgets...................303, 542
Biography--Laura Holgate.........................................   282
Biography--Rose Gottemoeller.....................................   271
Brookhaven National Laboratory.................................530, 531
Capital Equipment and General Plant Projects.....................   331
Chemical and Biological Weapons................................263, 551
Chemistry and Metallurgy Research Facility.......................   350
Chornobyl Reactors...............................................   390
Classified & Declassified Number of Pages........................   405
Commercialization of Projects....................................   357
Competitive Contract Awards....................................323, 383
Computer Modeling................................................   308
Construction Projects--Independent Assessments...................   349
Contract Consolidation...........................................   330
Contractor Assistance to Nonproliferation and National Security 
  Program........................................................   433
Contractor Employee Reductions by Site...........................   503
Contractor Employment By Site....................................   450
Contractor Employment Levels.....................................   338
Contractor Employment............................................   338
Contracts for Non-Core Competency Functions at the Weapons 
  Laboratories...................................................   562
Critical Infrastructure Protection...............................   308
CTBT and Production Plant Maintenance............................   543
Declassification Costs...........................................   406
Declassification Productivity Initiative.........................   407
Declassification.....................................401, 403, 404, 405
Defense Program Goals............................................   553
Demographic Problems/Skills Gap..................................   291
Dismantlement....................................................   284
Disposing of Russia's Highly Enriched Uranium....................   511
DOE Non-Nuclear Facilities.......................................   439
Dual Revalidation................................................   536
Dual Track of Plutonium Disposition: MOX Program.................   307
Economic Development Funding.....................................   459
Economic Development Initiatives.................................   463
Emergency Operations.............................................   424
Emergency Response and Operations Crosscut.......................   427
Employment Levels in Nonproliferation and National Security......   432
Employment Levels................................................   337
Employment-Engineers/Technicians.................................   303
Environment, Safety & Health Crosscut............................   437
Excess Government Property.......................................   506
Executive Order 12958............................................   404
External Regulation............................................435, 439
Federal Employees Performing Environment, Safety and Health 
  Activities.....................................................   440
Federal Employment Levels........................................   352
Fernald..........................................................   467
Fiscal Year 1999 Emergency Supplemental Appropriation Rescission.   291
Foreign Visitors to the Labs...................................285, 286
Funding for Capital Equipment and General Plant Projects.........   331
Funding for Scientists in Russia or Other NIS Countries..........   366
FY 1998-2000 DOE Environment Compliance Resource Requirements....   438
FY 2000 Congressional Safeguards and Security Crosscut Estimates 
  by Facility....................................................   412
GAO Report on IPP.........................................301, 309, 355
Grand Junction Office............................................   507
Hazmat Spill Center..............................................   429
Health Studies...................................................   434
HEU Transfer...................................................511, 519
High Explosive Aging.............................................   283
Idaho National Engineering and Environmental Laboratory..........   464
Infrastructure Funding...........................................   304
Initiatives for Proliferation Preventi355, 358, 359, 364, 366, 371, 532
Initiatives for Proliferation Prevention and NCI.................   294
Inspector General Report and use of Aircraft.....................   347
Integrity of Existing Nuclear Weapons Stockpile..................   527
International Nuclear Safety Center..............................   397
International Nuclear Safety Program Funding...................392, 396
International Nuclear Safety Program.............................   396
Kansas City Employment...........................................   304
Kansas City Infrastructure.....................................304, 537
Laboratory Directed Research and Development.....................   342
Laboratory Employment............................................   339
Laboratory Oversight.............................................   286
Laboratory/Plant Infrastructure..................................   305
Long-Term Plan for Production Plans..............................   544
Los Alamos Funding and Job Creation by program Area..............   472
Los Alamos.......................................................   469
Management and Assistance to Nonproliferation and National 
  Security Program...............................................   432
Management Contractor Team Employment............................   451
Managing and Assisting NCI.....................................362, 365
Material Protection, Control and Accounting..........285, 294, 384, 549
Mound Funding and Job Creation by Program Area...................   476
Mound............................................................   473
National Atomic Museum...........................................   348
National Ignition Facility (NIF).................................   327
Negotiations with Russia on Plutonium Disposition................   292
Negotiations with Russians on Nonproliferation Efforts...........   302
Nevada Funding and Job Creation by Program Area..................   480
Nevada...........................................................   477
Next General of Weapons Scientists...............................   538
Nonproliferation Issues/Concerns...............................289, 311
North Korean Spent Fuel Program..................................   385
Nuclear Cities Initiative (NCI)...........................360, 361, 362
Nuclear Material Storage Facility................................   559
Nuclear Safeguards and Security................................400, 411
Nuclear Stockpile................................................   367
Nuclear Weapons Components.......................................   561
Nuclear Weapons Designs..........................................   554
Oak Ridge Funding and Job Creation by Program Area...............   484
Oak Ridge........................................................   481
Office of Worker and Community Transition.................448, 460, 462
Paducah Funding and Job Creation by Program Area.................   491
Paducah..........................................................   490
Panelist Funding and Job Creation by Program Area................   486
Pantex Infrastructure............................................   538
Personnel Needs..................................................   305
Pinellas.........................................................   485
Pit Production..................................290, 333, 548, 552, 556
Plant Employment.................................................   306
Plutonium Aging................................................283, 557
Plutonium Disposition..........................................310, 523
Plutonium Storage................................................   560
Portsmouth Funding and Job Creation by Program Area..............   489
Portsmouth.......................................................   487
Prime Contractor Employment by Site and Program................452, 458
Prime Contractor Separations and Costs by Site.................445, 504
Production Plant Maintenance...................................541, 543
Production Plant Workforces......................................   545
Projected Prime Contractor Employment by Site and Program........   457
Reduced Enrichment for Research and Test Reactor (RER372, 373, 374, 379
Reimbursable Work Performed for Other Federal Agencies...........   344
Reimbursable Work................................................   343
Remanufacturing..................................................   558
Research and Development..................................323, 383, 386
Richland Funding and Job Creation by Program Area................   495
Richland.........................................................   492
Rocky Flats Environmental Technology Site........................   496
Rocky Flats Funding and Job Creation by Program Area.............   499
Russia/Newly Independent States................................368, 369
Russia's Contribution to Plutonium Disposition...................   312
Russian Highly Enriched Uranium..................................   315
Russian Nuclear Weapons Laboratories.............................   363
Russian Plutonium Disposition....................................   508
Russian/U.S. Cooperative Programs................................   315
Safeguards and Security Funding..................................   411
Savannah River Funding and Job Creation by Program Area..........   502
Savannah River Infrastructure....................................   539
Savannah River...................................................   500
Second-Line-Of-Defense...........................................   296
Section 3161 Costs.............................................441, 444
Security at Brookhaven National Laboratory.......................   531
Security at the Labs......................................296, 299, 300
Security Investigations........................................415, 423
Security Policy at the Labs......................................   298
Severance Benefits and Associated Costs..........................   442
Severance Benefits to Contract Employees.........................   441
Soviet-Designed Reactor Program......................389, 391, 393, 398
Staffing for Emergency Response and Operations...................   426
START Agreements and Tritium Needs...............................   318
START Agreements...............................................284, 317
Statement--Oral--Dr. Victor Reis.................................   241
Statement--Oral--Rose Gottemoeller...............................   262
Statement--Oral--Laura Holgate...................................   272
Statement--Written--Laura Holgate................................   274
Statement--Written--Rose Gottemoeller............................   265
Statement--Written--Dr. Victor Reis..............................   245
Status of Chernobyl Reactors.....................................   390
Stockpile Aging..................................................   283
Stockpile Management Restructuring Initiative..................332, 341
Stockpile Management.............................................   333
Stockpile Reliability............................................   526
Stockpile Size...................................................   284
Stockpile Stewardship............................................   314
Storage and Disposition Cost Estimate............................   521
Storage of Weapons-Usable Nuclear Materials......................   384
Subcritical Experiments..............................243, 320, 321, 322
Surplus Facilities...............................................   340
Surplus Fissile Materials Inventory..............................   520
Technology Partnerships..........................................   328
Test Readiness...................................................   319
Total Cost of Executing Section 3161 by Year and Site............   444
Treaty Monitoring................................................   386
Tritium..........................................................   546
U.S. Funding to Date for Soviet-Designed Reactor Program.........   395
U.S. Russian Highly Enriched Uranium Agreement...................   512
U.S./Russian Cooperative Laboratory Programs.....................   315
Use of Direct Program Funds......................................   443
Vulnerability Assessment Reports.................................   436
Warhead Storage..................................................   284
Worker and Community Transition..................................   462
Workforce Transition and Economic Development Funding............   459
Y-12 Infrastructure..............................................   540
Y2K Impacts on Communication Between the Nuclear Superpowers.....   522
Year 2000 Impact on Weapons Programs.............................   529
Year 2000 Problem................................................   287

                Defense Nuclear Facilities Safety Board

Annual Performance Plans for FY 2000.............................   583
Annual Report....................................................   622
Appendix A--Statutory Mission of the Board.......................   609
Appendix B--Object Class Summary.................................   611
Appendix C--Technical Support Contracts Summary..................   616
Budget Request...................................................   564
Executive Summary................................................   569
Mission and Strategic Planning Goals Summary.....................   577
Personnel Summary................................................   565
Proposed Appropriation Language..................................   566

             Civilian Radioactive Waste Management Program

2010 Deadline....................................................    83
Accelerator Transmutation of Waste...80, 88, 91, 93, 177, 178, 188, 190
Balance Owed by Defense Programs.................................   176
Characterization of Yucca Mountain...............................    81
Consortium for Risk Evaluation...................................    95
Cost of Accelerator Transmutation of Waste.......................   189
Cost of On-Site Storage..........................................    95
Depleted Uranium.................................................   168
DOE Obligation to Accept Spent Nuclear Fuel......................   191
Environmental Impact Statement...................................   166
Escalating Costs at Yucca Mountain...............................    94
Fiscal Year 2000 Budget Request (RW).............................    78
Fiscal Year 2000 Budget Request for Accelerator Transmutation of 
  Waste..........................................................    92
Foreign Countries Disposal Programs..............................    84
Funding for Affected Units of Government.........................   173
Funding Profile for On-Site Storage..............................    79
H.R. 45.........................................................67, 198
International Disposal Programs............................69, 171, 172
Level Funding..............................................83, 160, 199
Licensing Canisters..............................................   197
Litigation Costs................................................78, 161
Nuclear Waste Fund Off Budget....................................79, 94
Nuclear Waste Fund...............................................   200
Obligation to Remove Spent Fuel..................................   162
On-Site Storage..........................................77, 78, 84, 95
Prior Year Funding at ATW Funding................................    92
Proposal to Take Title to Spent Nuclear Fuel.....................   163
Radiological Standard............................................   165
Release of Radioactivity.........................................   194
Scientific and Technical Program Funding--$39 Million............   199
Site Recommendation and License Application......................   164
State of Nevada Funding..........................................    79
State Oversight..................................................   175
Transportation.............................................85, 196, 198
Transportation Spent Nuclear Fuel................................   195
Yucca Mountain Heat Treatment....................................    91
Yucca Mountain Site..............................................    90

                        Environmental Management

Advanced Mixed Waste Treatment Project...........................   117
Advisory Board Funding...........................................   141
Brookhaven National Laboratory.................................179, 180
Canyon Stabilization Program.....................................   203
Closure of the Rocky Flats Site............................71, 182, 185
Cost and Schedule Cleanup Estimates..............................    99
CRESP............................................................   181
Decommissioning the Gaseous Diffusion Plant at Oak Ridge.........    89
Defense Closure Sites............................................    73
Defense Waste Processing Facility................................   128
Disposal at the Nevada Test Site.................................    98
Enterprise Companies at Hanford..................................   126
Enterprise Companies Under Project Hanford Management Contract 
  (PHMC).........................................................   124
Excess Facilities................................................   100
Foreign Research Reactor Fuel....................................85, 86
Foreign Research Reactor Spent Fuel Program......................   130
Funding for Closure Sites........................................    74
Funding for Newly Generated Waste................................   133
Funding for Tanks at Hanford.....................................    75
Greater Than-Class (GTCC) Low-Level Waste........................   115
Hanford Site.....................................................    76
Hanford Support Activities Funding Breakout......................   120
Heavy Water Sale at Savannah River Site..........................   131
Historically Black Colleges and Universities.....................   148
Idaho Business Development Activities............................   118
Inspector General Report on Low-Level Waste Disposal.............   113
In-Tank Precipitation Project..................................129, 202
K Basin Project at Hanford.......................................   119
Los Alamos Low Level Waste.....................................113, 134
Low Level Waste Compact States...................................   153
Low-Level and Mixed Low-Level Waste Disposal...............86, 114, 150
National Low Level Waste Program.................................   156
Nevada Test Site Waste Shipments.................................   132
New Mexico Funding for WIPP......................................   109
Nonproliferation Programs........................................    77
Opening of the Waste Isolation Pilot Plant.......................   103
PEIS Lawsuit Settlement.........................................84, 101
Pit 9............................................................   116
Private Sector Financing.........................................   111
Private Sector Interest in Low-Level Waste Disposal..............   114
Privatization....................................................   187
Projectizing EM Work.............................................   186
Radioactive Liquid Waste Treatment...............................   134
Receipt of Foreign Research Reactor Spent Fuel...................    87
Reprogrammings...................................................   140
Responsibilities of the Environmental Management Program.........    87
Savannah River Site Alternatives to ITP..........................    81
Savannah River Site............................................128, 201
Shipments of TRU Waste from Rocky Flats..........................    72
Statement--Oral--James Owendoff..................................     1
Statement--Oral--Lake Barrett....................................    40
Statement--Written--James Owendoff...............................     5
Statement--Written--Lake Barrett.................................    45
Status of Cleanup at Pit 9.......................................   116
Status of WIPP...................................................    71
Storage of Waste at Rocky Flats..................................    72
Support for Science Programs.....................................    82
Tank Waste Remediation System Project............................   110
Treatment of Radioactive Liquid Waste............................    97
Unfunded Requirements............................................   143
Uranium Enrichment D & D BNFL Contract...........................   135
Uranium/Thorium Reimbursement Program.......................89, 90, 138
Verification of High-Level Waste at Savannah River...............    88
Waste Isolation Pilot Plant Funding............................104, 105
Waste Segregation................................................   152
Waste Shipments to the Nevada Test Site..........................   132
Waste Treatment at Los Alamos....................................    97
Weldon Spring Shortfall..........................................   139
WIPP......................................................102, 109, 204

                  Nuclear Waste Technical Review Board

Budget Impact Statement..........................................   219
Budget Request...................................................   220
FY 2000 Performance Plan.........................................   236
Statement of Dr. Cohon...........................................   214
Supplementary Information About the Board........................   233

                                <greek-d>

</pre></body></html>
